<html>
<title> - TSA'S SURFACE INSPECTION PROGRAM: STRENGTHENING SECURITY OR SQUANDERING SCANT RESOURCES?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
             TSA'S SURFACE INSPECTION PROGRAM: 
              STRENGTHENING SECURITY OR SQUANDERING 
              SCANT RESOURCES?
=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 31, 2012

                               __________

                           Serial No. 112-95

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 



      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
78-155                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................    29

                               Witnesses

Mr. John O'Connor, Chief of Police, Amtrak Police Department:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
Mr. Howard R. ``Skip'' Elliott, Vice President, Public Safety and 
  Environment, CSX:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Philip L. Byrd, Sr., President, Bulldog Hiway Express, 
  Testifying on Behalf of The American Trucking Association:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. William C. Blankenship, Chief Operating Officer, Greyhound 
  Lines, Inc.:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Mr. Doug Morris, Director, Safety and Security Operations, Owner-
  Operator Independent Drivers Association:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25


TSA'S SURFACE INSPECTION PROGRAM: STRENGTHENING SECURITY OR SQUANDERING 
                            SCANT RESOURCES?

                              ----------                              


                         Thursday, May 31, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
Room 311, Cannon House Building, Hon. Mike Rogers [Chairman of 
the subcommittee] presiding.
    Present: Representatives Rogers, Cravaack, Turner, Jackson 
Lee, Davis, and Richmond.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee on Transportation Security, will come to order. 
The committee meeting is to receive testimony on TSA's Surface 
Transportation Security Inspection Program.
    I want to thank all of our witnesses at the hearing today 
for being here. I know it took a lot of time to prepare for it 
and to be here, and I do appreciate your willingness to do so. 
It is very helpful to us.
    Less than 2 percent of TSA's nearly $8 billion budget goes 
toward surface. There are two primary reasons for this: First, 
we know aviation continues to be a major focus of our enemies. 
Second, our surface systems are inherently accessible to 
millions of people every day. They have to remain open for many 
reasons, not the least of which is to keep our economy on 
track. No pun intended.
    Having said that, terrorists see surface transportation as 
a very attractive target. Since we can't screen everyone and 
everything that gets on a train, truck, or bus, intelligence-
sharing deterrence and detection measures are extremely 
important.
    Since 9/11 there has been a long list of devastating 
attacks against mass transit systems worldwide. There have also 
been a number of plots against our own transit systems. 
Thankfully, the work of our intelligence community and the 
vigilance of everyday citizens has helped disrupt these plots. 
But that does not mean that we can afford to lose focus. 
Regardless of its failings in providing aviation security, 
TSA's role is more clearly defined in that environment. On the 
other hand, local transit agencies and local law enforcement 
take the lead in providing security for surface transportation. 
So far TSA has done a good job of making sure it stays that 
way.
    Unfortunately, it looks like one of the few surface 
initiatives TSA is responsible for has not been well received 
or well managed. At a hearing held by this subcommittee last 
year, industry witnesses voiced their concern with TSA's 
surface inspection program. Their concerns sparked our hearing 
today.
    Over the last several months subcommittee staff has 
conducted oversight on the surface inspectors. Here are five of 
the problems we know about:
    No. 1, most surface inspectors have no surface 
transportation experience or surface background whatsoever. 
Many surface inspectors were promoted from screening passengers 
at airports.
    No. 2, these inspectors report to the Federal security 
directors at the local airports who commonly also do not 
possess any surface transportation experience.
    No. 3, at least one local TSA official indicated that he is 
always looking for things for his inspectors to do to occupy 
their time.
    No. 4, most surface inspectors have just two things to look 
for on a typical day: Whether a transit system is reporting 
incidents to the TSA and whether there is a security person on 
duty.
    Finally, the work of these inspectors may not be as robust 
as reported. According to one former inspector, TSA management 
encourages inspectors to record more activities to make it look 
like they are busier than they really are. These findings are 
disturbing to me. Here we have TSA hiring more and more surface 
inspectors, and yet where is the security benefit?
    In the last 5 years, the budget for this program has 
quadrupled, and in the history of the program only one 
situation has ever resulted in punitive fines across the entire 
country as a result of these inspections.
    Now, I have already stated that TSA has a very limited 
amount of money dedicated to surface transportation security. 
There are some great programs out there, particularly the 
Transit Security Grant Program administered by FEMA. This grant 
program allows local transit agencies and law enforcement to 
fund counterterrorism teams, canine detection teams, and other 
successful initiatives. We owe it to the taxpayer to look close 
at the TSA inspectors program and determine whether this is a 
good use of limited resources or if this funding would be 
better spent on other surface initiatives that are designed to 
prevent an attack, keeping in mind that we all want the safest, 
most secure transit possible.
    Today I look forward to hearing from industry stakeholders 
about how the TSA could do a better job of allocating its 
surface security resources. No one has more invested in this 
than you do.
    Normally right now, I would yield to the Ranking Member for 
opening statements. She is, as I told the witnesses, is tied up 
in the Intelligence Committee and will be in and out. When she 
arrives we will turn to her for that.
    Now I want go ahead and get started with our witnesses. I 
would advise other Members, if they have opening statements, 
they can submit them for the record.
    We are pleased to have several distinguished witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire statements will appear in the 
record. Our first witness is Chief John O'Connor who currently 
serves as the chief of police for Amtrak. Chief O'Connor has 
the responsibility for development of security strategies, the 
implementation of security countermeasures, and the delivery of 
uniformed investigative and special operations police for 
Amtrak. Prior to his current position, Chief O'Connor served as 
chief of patrol which followed his assignment as commanding 
officer of Amtrak's metropolitan division in New York.
    Before joining the Amtrak Police Department in 1998, Chief 
O'Connor served with the Long Island Railroad Police 
Department, the largest commuter railroad in the United States, 
for 25 years. Having risen through the ranks, he retired as 
chief of police. The Chairman welcomes back Chief O'Connor and 
you are recognized for 5 minutes.

  STATEMENT OF JOHN O'CONNOR, CHIEF OF POLICE, AMTRAK POLICE 
                           DEPARTMENT

    Chief O'Connor. Thank you. Good afternoon, Chairman Rogers 
and committee Members. It is an honor and a privilege to appear 
before this committee. In my opinion, the threat against 
surface-based transportation systems is as high as it has ever 
been. All too often, we hear news of another overseas attack 
or, fortunately, a foiled attack in this country.
    The Mineta Institute issued a report last year which 
detailed attacks on transit systems since 9/11. It listed more 
than 1,800 attacks on bus and rail targets, resulting in over 
3,900 deaths and countless injuries. A 2012 Heritage Foundation 
report states that in the United States alone, more than 50 
terror plots have been foiled since 9/11, many of them targeted 
at surface transportation systems. We know that al-Qaeda 
continues to urge even more attacks through its magazine 
Inspire, as well as through skillful use of the internet. We 
must therefore make every reasonable effort to remain vigilant 
because the threat is real.
    Amtrak's approach to providing for the security of those 
who depend on our system is one of prevention, partnership, and 
participation. On the prevention side we deploy hundreds of 
uniformed officers and investigators at more than 30 locations 
around the country. These efforts are all overlayed by special 
operations forces which include one of the most skillful canine 
units in operation today. Many of our canines have been trained 
at Auburn University, which has developed a technique known as 
``vapor wake'' for detecting the movement of explosives through 
large crowds such as those found at train terminals.
    However, no one department can handle the enormity of the 
transportation security task at hand. Thus, our emphasis on 
partnership. Based initially on a Northeast Corridor coalition, 
first formed by NYPD Commissioner Ray Kelly, Amtrak has worked 
with the TSA to form a network called RAILSAFE which now 
coordinates the efforts of more than 200 agencies in over 40 
States to protect Amtrak and local transit systems.
    Amtrak has also been accepted as an associate member of 
RAILPOL, a network of European rail police agencies sharing 
best practices to protect our respective systems. Additionally, 
we partner closely with the TSA to conduct thousands of joint 
baggage screening efforts and VIPR deployments throughout our 
system.
    We have also turned to our 19,000 employees and the riding 
public in an effort to leverage their knowledge and familiarity 
with our system. Through a variety of training efforts and 
public outreach, we have given our employees and the public 
both the tools they need to identify suspicious circumstances 
and the means to share their observations with the proper 
authorities.
    I would like to say that the TSA has been a good Federal 
partner. Amtrak's partnership with the TSA has produced 
significant improvements in transit security. The TSA has been 
at the forefront in many important developments, including VIPR 
deployments, joint baggage screening for explosives, the 
establishment of a peer advisory group of transit police 
chiefs, assisting in directing funding for infrastructure 
protection and operational security surges, and the 
administration of a base program to assist agencies in the 
application of their security efforts. This is only a partial 
list, but it is a substantial one.
    That being said, in today's tough economic times, I think 
it would be prudent to ensure that all of the TSA's efforts 
make the best possible use of their respective budget 
allocations.
    One program in particular that I agree is worth a closer 
examination is the Surface Inspection Program. Amtrak's 
experience with this program has been somewhat mixed. On the 
one hand, the program has been helpful to us in its base 
assessment of the Northeast Corridor. On the other hand, Amtrak 
has encountered difficulties over interpretation of regulations 
by different TSA field offices. Informal inquiry has revealed 
mission confusion and disconnects with TSA headquarters at 
times.
    Today the program is at least partially overseen by some 58 
security directors who often have airline security as a higher 
priority in their view of their responsibilities. It is not 
clear to Amtrak that this is the best structure for surface 
transportation, and it is also unclear whether the program, as 
funded and structured, continues to add value to the overall 
security efforts. Our preference would be that the program take 
on a more operational focus.
    In closing, I think the TSA deserves high marks for its 
surface transportation security efforts, notwithstanding 
improvements that could be made to the surface transportation 
and inspection program.
    I have submitted a written statement for the record and 
appreciate the opportunity to share these remarks and would be 
glad to answer any questions the committee may have. Thank you.
    [The prepared statement of Chief O'Connor follows:]
                  Prepared Statement of John O'Connor
                              May 31, 2012
    Good afternoon, Mr. Chairman and Members of the House Homeland 
Security Transportation Security Subcommittee.
    I've been dealing with the challenges of rail and transit security 
since the beginning of my career. I joined the Long Island Rail Road 
Police Department in the early 1970s, and served there before coming to 
Amtrak in 1998. Since coming to Amtrak, I've been responsible for the 
development of security strategies, the implementation of security 
countermeasures, and the delivery of uniformed, investigative, and 
special operations police services for Amtrak system-wide. A lot has 
changed since I first put on a uniform, and while the task of 
developing a safer and more secure passenger rail system has always 
been a demanding one, I think we've been fortunate in the support we've 
received from our president and chief executive officer, Joe Boardman. 
Mr. Boardman takes safety and security issues very seriously, and he 
has worked hard to ensure that we have the resources we need to do the 
job.
    Since the September 11, 2001 attacks, every American has become 
conscious of the potential for terrorist action, or has heard about the 
thwarted attempts of terrorists to conduct attacks within our borders 
where more than 50 terror plots have been foiled. Overseas, terror 
organizations have repeatedly attacked surface transportation services. 
In 2011, the Mineta Institute reported that since the 9/11 attacks, 
terrorists have carried out 1,804 attacks on bus and rail targets, 
killing more than 3,904 people. For rail, the list of attacks and the 
numbers of casualties makes sobering reading:
  <bullet> 2003--Yessentuki, Russia--42 killed, 150 injured;
  <bullet> 2004--Moscow, Russia--40 killed, 200 wounded;
  <bullet> 2004--Madrid, Spain--191 people killed, 1,850 injured;
  <bullet> 2005--London, England--52 killed, 700 injured;
  <bullet> 2006--Mumbai, India--209 killed, 809 injured;
  <bullet> 2008--Mumbai, India--164 killed, 308 injured;
  <bullet> 2010--Moscow, Russia--39 killed, 70 injured;
  <bullet> 2011--Minsk, Belarus--15 killed, 200 injured.
    We know that al-Qaeda continue to urge even more attacks through 
its Inspire magazine, the internet, and other means. The above list is 
far from complete, for it doesn't include some of the smaller and less 
lethal attacks, but it does make something clear: Terrorism as a tactic 
is not limited by location, by cause, or by any ethnic or confessional 
constraints. It is a tactic used by a wide range of conspiratorial 
organizations across the world who are unmoored from any ethical 
constraint and who are willing to kill innocent people in the hope that 
by so doing, governments and peoples will be forced to alter not just 
policies, but their fundamental natures.
    With regard to today's hearing, I think that goal is particularly 
important, because the purpose of agencies like the TSA is not just to 
protect our lives, but our way of life. Over the past decade, Federal 
agencies have worked unremittingly to accomplish this end, and I think 
it's fair to say, there have been many successes. But, rail 
infrastructure continues to be a terrorist target, and consequently, we 
will need to have Federal agencies like TSA be leaders in this struggle 
and to be a model for law enforcement organizations to emulate. 
Clearly, we must make sure we are taking every reasonable effort to 
remain vigilant to mitigate this potential threat.
    Against this background, Amtrak, through the Amtrak Police 
Department (APD), tries to do its part. It has been transformed into a 
mobile and fluid department that uses diverse patrol tactics and unique 
police operations to improve security on the Amtrak rail system. Our 
cornerstone philosophy is predicated on what we call the 3 Ps--
Prevention, Partnerships, and Participation. This approach is designed 
to inform and coordinate the efforts of APD, partner law enforcement 
agencies ranging from local police forces to the DHS and TSA, 
individual employee efforts, and passenger reporting to help keep our 
system safe and secure.
    In this regard, TSA has been a good Federal partner for APD. They 
have supported many APD prevention initiatives, including the expansion 
of our canine program of which I am particularly proud. Presently, 
Amtrak has over 50 explosive canine detection teams. A portion of these 
teams are ``vapor wake'' trained, a new technique which trains one 
canine to cover and screen large areas of transportation facilities. 
The dog's keen sense of smell is the foundation for this application, 
as explosive components can be detected in the residual scent left by 
people walking through a station's corridor or platform. As APD has 
developed new patrol and counterterrorism tactics by increasing train 
riding patrols, instituting random and unpredictable surges, baggage 
screenings, and improving police officer training, DHS and TSA grant 
programs have provided us with much-needed funding to carry out these 
improvements and operations.
    From a partnership view, TSA has also been at our side for programs 
designed to create greater cooperation and support among all law 
enforcement agencies for security issues related to rail surface 
transportation. APD and TSA have performed over 1,700 VIPR Operations 
and our agencies perform joint baggage screening operations on a 
regular basis in many large Amtrak stations, including New York, 
Washington, and Chicago.
    TSA also supported APD's initiative to start Operation RAILSAFE. 
This effort uses deployment exercises and various tactical deployments 
to educate State and local agencies about the rail environment on which 
their citizens travel and demonstrate organized law enforcement 
activities at surface transportation locations. The last RAILSAFE 
exercise in April of this year involved 190 agencies in 38 States, 
Canada, and the District of Columbia.
    Additionally, Amtrak participation programs for employee training 
and passenger awareness have been accomplished with DHS/TSA 
collaboration and backing.
    Other security-supported efforts include:
  <bullet> Voluntary participation in the BASE analysis for the NEC 
        where Amtrak earned the TSA ``Gold Standard'' designation;
  <bullet> Support for the Northeast Coalition to bring more local 
        police offices in rail environments and for the APD membership 
        in RAILPOL to expand intelligence and information sharing with 
        EC Rail Police agencies;
  <bullet> APD is charter member of the Mass Transit PAG; and
  <bullet> Amtrak is a TSA R&D ``test bed'' agency.
    That being said, in today's tough economic times, I think it would 
be prudent to ensure that all of TSA's efforts make the best possible 
use of their respective budget allocations. One program in particular 
that I agree is worth closer examination is the Surface Transportation 
Security Inspector program.
    Amtrak's experience with this program has been somewhat mixed. On 
the one hand, the program has been helpful to us in its BASE assessment 
of our Northeast Corridor. On the other hand, Amtrak has encountered 
difficulties over interpretation of regulations by different TSA field 
offices. Informal inquiry with several offices has revealed mission 
confusion and disconnects among offices and TSA HQ's at times. Today, 
the program is at least partially overseen by some 68 Federal Security 
Directors who often have airline security as a higher priority in their 
view of their responsibilities. It is not clear to Amtrak that this is 
the best structure for surface transportation, and it is also unclear 
whether the program, as funded and structured, continues to add value 
to overall security efforts. Our preference would be that the program 
take on a more operational focus.
    In closing, I think the TSA deserves high marks for its surface 
transportation security efforts, notwithstanding improvements that 
could be made to its Surface Transportation Inspector program, and I 
look forward to answering any questions you may have about our 
transportation security program.

    Mr. Rogers. I thank you, Chief O'Connor, for your 
testimony.
    Our second witness is Mr. Skip Elliott, vice president of 
public safety and the environment at CSX, and he will be 
testifying on behalf of the Association of American Railroads.
    Mr. Elliott is a 34-year veteran of the railroad industry. 
Prior to joining CSX in 1998, Mr. Elliott worked for 
Consolidated Rail Corporation, CONRAIL, the Philadelphia-based 
freight railroad, in a variety of capacities in the police 
safety and environmental departments.
    The Chairman now recognizes Mr. Elliott for 5 minutes to 
summarize his opening statement. Welcome.

STATEMENT OF HOWARD R. ``SKIP'' ELLIOTT, VICE PRESIDENT, PUBLIC 
                  SAFETY AND ENVIRONMENT, CSX

    Mr. Elliot. Good afternoon, Mr. Chairman and Members of the 
committee. I have been a railroader for 35 years. I currently 
serve as vice president of public safety and environment for 
CSX Transportation. In that role I am responsible for the 
environment, hazardous materials transportation safety, our 
railroad police department, homeland security, and industrial 
hygiene programs.
    I am pleased to be here before you today testifying on 
behalf of CSX and the Association of American Railroads on 
freight rail security issues in general and on the 
Transportation Security Administration's surface transportation 
inspection program in particular.
    On the topic of post-9/11 industry security action, CSX and 
the rail industry remain deeply committed to rail security. 
Immediately after 9/11 and well before there was a TSA or DHS, 
our industry moved rapidly to voluntarily address the new 
threat environment and developed and implemented a highly 
regarded unified risk-based approach to security.
    On the topic of TSA surface transportation inspectors, TSA 
has enacted formal regulations and we support the goals of 
these regulations and are committed to full compliance. That 
said, we have several concerns regarding the TSA surface 
transportation inspection program. First, CSX is troubled by 
the lack of consistency by its surface inspectors on the 
regulatory requirements for moving hazardous materials by rail. 
We frequently encounter surface inspectors who apply provisions 
of the regulations in different ways. Actions accepted as 
compliant by some TSA field officers are labeled as violations 
that produce official citations by others. This is troubling to 
CSX as we strive to ensure consistent security practices 
through a rail network that spans 21,000 miles of track in 23 
States and encompasses over 13,000 local jurisdictions. Our 
counterparts at other railroads indicate that this is not just 
an issue for CSX.
    Second, it is unfortunate that inspectors' enforcement 
efforts routinely focus on minor paperwork issues that elevate 
administrative errors to the level of serious infractions, 
generating official letters of investigation that threaten a 
$10,000 fine. For example, the regulation mandates chain-of-
custody requirements for railcars carrying toxic inhalation 
chemicals. CSX has received warnings for noncompliance with the 
chain-of-custody rule because the names of the employees were 
not spelled the same on the forms that we use, times were off 
by several minutes, and the names of the commodities were 
inserted in the wrong location in the form.
    Administrative inconsistencies such as variations in 
spellings due to the verbal exchange of names, as allowed by 
the law, does not present a meaningful security breach. In 
fact, CSX had been praised by inspectors for providing 
flawless, positive, and secure hand-off of these chemicals only 
to receive violations for very minor administrative errors.
    We believe that the lack of consistency and standardization 
in inspection priorities and activities are related to the TSA 
organizational construct. Surface inspectors do not report to 
the TSA freight rail branch, to a TSA headquarters official 
responsible for surface transportation, or regional security 
inspector appointed to be a liaison with the railroads on 
surface transportation issues.
    Mr. Chairman, as you indicated, surface inspectors report 
to Federal security directors whose primary focus is on 
aviation security.
    On the topic of information sharing and technology, we 
asked the committee to encourage TSA's on-going efforts to 
improve the quality and timeliness of actionable intelligence 
analysis for the rail sector. These products will support the 
efforts of railroad security professionals and TSA in focusing 
on truly significant threats and concerns.
    Finally, current TSA security regulations are mired in 
cumbersome and manual procedures as evidenced by the chain-of-
custody rule. We encourage TSA to incorporate modern technology 
approaches that provide better, more robust security 
enhancements for freight rail transportation. The U.S. freight 
rail industry is quickly expanding its technology solutions for 
safety and security, and TSA needs to follow suit.
    In conclusion, we recognize the complexity of challenges 
faced both by the Government and U.S. rail industry in ensuring 
the safe and secure movement of people and products in a post-
9/11 world. We look forward to working with this committee and 
TSA, and we appreciate the opportunity to provide comments on 
this important topic. Thank you.
    [The prepared statement of Mr. Elliott follows:]
            Prepared Statement of Howard R. ``Skip'' Elliott
                              May 31, 2012
    On behalf of CSX Transportation, Inc. (CSX) and the Association of 
American Railroads (AAR), thank you for the opportunity to appear 
before you today to discuss freight rail security issues in general and 
the Transportation Security Administration's (TSA) rail inspection 
program in particular.
    CSX operates a freight rail network spanning approximately 21,000 
miles, with service to 23 eastern States, the District of Columbia, and 
two Canadian provinces. We are part of a 140,000-mile U.S. freight rail 
network that serves nearly every industrial, wholesale, retail, 
agricultural, and mining-based sector of our economy. Whenever 
Americans grow something, eat something, mine something, make 
something, turn on a light, or get dressed, CSX or some other freight 
railroad is probably involved somewhere along the line. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Amtrak and several commuter railroads are members of the AAR and 
they work in concert with CSX and other freight railroads on security 
matters. Indeed, the rail industry has established a dedicated Freight 
and Passenger Coordinating Committee, for which security is a primary 
area of emphasis. However, my testimony today will focus on freight 
railroads. My understanding is that Amtrak will present its own 
testimony at this hearing.
    Assuring the security of our rail network requires a multi-faceted, 
cooperative effort that taps the full range of capabilities in the 
private sector and at all levels of government--including, of course, 
at the TSA--and applies them to best effect to assure preparedness and 
to deter and respond to acts of terrorism. CSX and our Nation's other 
railroads work continuously to meet this objective.
    At the same time, railroads want rail security to continue to 
improve, and they are always willing to work cooperatively with Members 
of this committee, others in Congress, the TSA, other agencies in the 
Department of Homeland Security, the Federal Railroad Administration, 
rail labor, and others to find practical, effective ways to make this 
happen.
                    the rail industry security plan
    Last fall our Nation observed the 10th anniversary of the tragic 9/
11 attacks. In previous appearances before this and other committees, 
rail industry representatives have detailed the many actions the 
industry took in the aftermath of those attacks.\1\ I won't repeat 
those particulars here, but it is well-documented that the rail 
industry voluntarily developed and implemented a Terrorism Risk 
Analysis and Security Management Plan, a comprehensive, intelligence-
driven, priority-based blueprint of actions designed to enhance 
railroad security. The plan was adopted by the rail industry in 
December 2001 and remains in effect today. And much has been done since 
the initial voluntary efforts by the rail industry following September 
11, 2001.
---------------------------------------------------------------------------
    \1\ See, for example, the statement of Edward R. Hamberger of the 
AAR before the Committee on Homeland Security on March 6, 2007, and the 
statement of Thomas L. Farmer of the AAR before the Subcommittee on 
Transportation Security and Infrastructure Protection on July 12, 2011.
---------------------------------------------------------------------------
    This means that before there was a TSA, before there was a DHS, the 
railroads had developed and implemented a unified, risk-based approach 
to security based on terrorism alert levels and progressively 
increasing protective measures to elevate preparedness to counter and 
respond to threats.
    The security plan is not simply something that has been put on a 
shelf to be taken down and dusted off occasionally. Rather, it is a 
robust and dynamic paradigm for rail operations that is evaluated and 
modified, as necessary, to ensure maximum continued effectiveness and 
includes network-wide risk assessments and asset specific 
countermeasures focused on people, process, and technology. A 
comprehensive review completed in 2009 evaluated the plan's guiding 
assumptions, risk methodology, and countermeasures, yielding an updated 
version that took effect in November of that year. Since then, as the 
nature of the terrorist threat has evolved, the plan has been reviewed 
to ensure its continuing effectiveness. As the Federal Government has 
adjusted its procedures--most recently on terrorism alerts with the 
adoption of the National Terrorism Advisory System--the rail industry 
has made sure that its plan's alert-level process and accompanying 
protective measures align well with the new Federal procedures.
    Regular exercises, conducted both industry-wide and by the 
railroads individually, appraise the effectiveness of the industry's 
security plan. Lessons learned from these exercises and from actual 
security-related incidents help ensure that the plan continues to 
evolve to meet changing circumstances and needs.
    The most recent industry-wide exercise occurred on October 13, 
2011. For that event, the industry invited direct participation by 
several Federal entities--including the TSA, DHS, FBI, and the FRA--
specifically to assure effective implementation of an efficient, 
understandable, and sustainable process for sharing intelligence on 
security threats and incidents by Federal Government agencies with the 
rail industry.
                  the rail security working committee
    A standing industry committee, comprised of senior railroad 
executives, security officials, and police chiefs, coordinates the rail 
industry's overall security effort. Supported by AAR's security staff, 
this group--known as the Rail Security Working Committee--reflects the 
industry's on-going commitment to working in a coordinated fashion, 
with participation by all the major railroads.
    Through monthly consultations, the committee identifies issues of 
concern, develops appropriate responses to those issues, and works with 
public-sector partners to implement solutions. The review, exercise, 
and continuous improvement of the industry security plan, outlined 
above, are a vital facet of the committee's functions. For example, the 
committee has developed and implemented an industry-wide emergency 
notification system to provide immediate awareness to railroads of the 
most significant security incidents affecting a freight or passenger 
train. The notification system has been successfully tested twice 
already this year.
    The committee also participates in open and candid discussions with 
TSA's Freight Rail Branch on current programs and initiatives, future 
priorities, and prevailing security issues and concerns, including 
those discussed further below. This continuing dialogue, which is held 
under the auspices of the Freight Rail Branch's Intermodal Security 
Training and Exercise Program (I-STEP), sustains constructive 
relationships and effective communication between the railroads' 
security and law enforcement officials and their counterparts in the 
Government.
                          information sharing
    Useful intelligence and security information must be shared in a 
timely, effective, and consistent manner if rail security efforts are 
to succeed. In this regard, railroads helped build and maintain two key 
resources focused on security information needs.
    The first--the Surface Transportation Information Sharing and 
Analysis Center (ST-ISAC)--was formed by the rail industry in 2002 at 
the request of the U.S. Department of Transportation. Working in secure 
facilities, ST-ISAC operates 24 hours a day, 7 days a week at up to the 
top-secret level to collect, analyze, and distribute security 
information from a wide range of Government, academic, media sources.
    With the high profile that cybersecurity concerns have garnered 
recently, it is important to note the vital role the ST-ISAC plays to 
help protect rail information technology systems and physical assets 
from attack. Each day, the ST-ISAC issues several advisories to the 
railroads addressing potential vulnerabilities in specific software or 
equipment and providing guidance on protective measures. These 
materials provide timely awareness of current or emerging threats and 
concerns and inform the sustained preparedness that is the essential 
foundation of the railroads' coordinated approach to cybersecurity.
    The second resource is the Railway Alert Network (RAN). The RAN 
serves as the rail industry's intelligence and security information 
center. Each day, its staff reviews intelligence, including classified 
information, from a broad range of sources and provides railroads with 
notice of and security advisories on rail-related threats, incidents, 
and suspicious activity.
    In addition, because security threats and incidents impacting 
railroads can emerge in other critical infrastructure sectors, the RAN 
works with a private-sector coordination group and other DHS components 
to ensure that railroads have relevant information on homeland security 
concerns generally.
    The RAN's products include a concise brief produced each day in 
concert with the American Public Transportation Association and the ST-
ISAC called the Transit and Rail Intelligence Awareness Daily (TRIAD) 
as well as focused security awareness messages that address rail 
security implications of threats, incidents, disrupted plots, and 
intelligence analyses. Examples of the RAN's output have been provided 
to this subcommittee for your information and reference prior to this 
hearing. The RAN shares most of the materials it produces and 
disseminates with our Federal partners and with appropriate local and 
State authorities.
    Information sharing is a two-way street, though, and unfortunately, 
CSX and the rail industry have found that information sharing by 
various Government agencies with the rail industry is plagued by 
persistent difficulties in timeliness, practical security relevance, 
and means of dissemination. Railroads provide a plethora of security-
related information every day to various Governmental entities, but 
this reporting yields comparatively very little in analyses of security 
value for the industry.
    The reporting to the Transportation Security Operations Center 
(TSOC) is a case in point. By regulation, railroads report 
``significant security concerns'' to TSOC. There does not seem to be 
any process in place for analysis of these reports, and those in other 
surface transportation modes, for trends or other indicators of 
concern. Nor do the criteria for this mandated reporting align with 
those applied by the rest of DHS, the FBI, and the Office of Director 
of National Intelligence in the cross-sector Nation-wide Suspicious 
Activity Reporting Initiative. Common reporting parameters, which the 
Rail Security Working Committee has formally proposed, would facilitate 
the inter-agency analysis and cross-sector sharing that is essential to 
continuous situation awareness and sustained security preparedness.
    Railroads are proud of their ability to react quickly and 
decisively in the face of credible intelligence impacting the rail 
network. However, the sluggishness and inconsistency with which we 
receive important intelligence information hinders our ability to 
respond to potential threats. Railroads will continue to work amicably 
and professionally with our public-sector partners to resolve this 
problem. Demonstrative of this commitment, and worthy of commendation, 
is a new initiative by TSA's Office of Intelligence, announced at a 
joint I-STEP meeting held in Newark this past March. That office has 
adopted the rail industry's most significant intelligence requirement 
as a priority in its analyses, shifting focus to thorough review of 
past terrorist attacks, failed attempts, and disrupted plots that have 
targeted rail worldwide--passenger and freight--for lessons learned and 
inferences on likely future tactics in order to inform more effective 
and sustainable security measures and actions. TSA analysts will 
consult with rail industry security leads in the development of these 
products. We will work in concert to ensure their effective 
dissemination, integrating local and State law enforcement departments 
as a means of fostering informed partnerships for security enhancement. 
This coordinated effort flows directly from consultations in the joint 
I-STEP meetings sponsored by TSA's Freight Rail Branch--and puts into 
practical application Assistant Secretary John Pistole's commitment 
that TSA is an intelligence-focused agency.
        working with the tsa and tsa's rail security inspectors
    CSX believes that partnerships are key to effective security 
planning and enhancing public safety, and that this cooperation 
provides lasting benefits to our employees and to the communities we 
serve. I'm sure the other freight railroads agree with us on this 
point. I'm also sure that, like CSX, the other railroads are proud of 
the collaborative working relationship the industry has developed in 
recent years with the TSA, DHS, and other Government entities.
    This collaborative relationship is manifest in a variety of ways. 
For example, TSA's Freight Rail Branch has initiated recurring 
coordination meetings with railroads. As demonstrated by the progress 
on the rail industry intelligence requirement, this forum fosters 
effective communication and problem solving, and we commend the Freight 
Rail Branch for establishing them via the I-STEP process. The most 
recent coordination meeting took place in Newark, New Jersey, during 
March 7-8, 2012. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Railroads also work effectively with TSA on a variety of training-
related issues. For example, the Transportation Technology Center, Inc. 
(TTCI), a wholly-owned subsidiary of the AAR in Pueblo, Colorado, is 
the world's finest rail research facility. Among many other things, 
TTCI trains thousands of emergency responders each year from all over 
the country. Taking advantage of TTCI's expertise, TSA has been using 
TTCI for employee training since 2006. In fact, more than 2,100 TSA 
participants have trained at TTCI to date, in such areas as ``Railroads 
101,'' hazmat transportation, motor carrier security and safety 
compliance, and basic explosives. In 2010, TSA opened its own dedicated 
facility at TTCI, though it continues to draw upon the expertise of 
TTCI personnel in railroad training and orientation programs. The 
industry values this effective partnership.
    The cornerstone of CSX's public-private partnerships is sharing our 
highly-specialized secure Network Operations Workstation 
(``SecureNOW'') with Federal and State homeland security officials. The 
SecureNOW system is a proprietary, secure on-line computer tool used to 
monitor, identify, and respond to rail security and emergency issues 
throughout the CSX network. This system, developed by CSX, provides CSX 
employees and trained State homeland security and public agency 
officials with a tool to promptly identify the location and status of 
CSX trains and rail cars on our network. SecureNOW allows trained 
security and public agency officials in several States to independently 
track the location of CSX trains and the contents of the rail cars in 
those trains in a nearly real-time environment. Before, officials 
needed to telephone CSX to access this information.
    CSX's SecureNOW system and our approach to information sharing 
helps homeland security officials prepare for and--if needed--respond 
to emergency situations. Access to SecureNOW also provides State and 
Federal officials with additional information about what is carried on 
our rails, and State officials can more efficiently allocate law 
enforcement resources, coordinate with CSX security officials, and 
integrate rail security into on-going law enforcement operations.
    In fact, CSX has entered into partnerships with two Federal 
entities--the TSA's TSOC and the DOT's Crisis Management Center. This 
allows trained Federal homeland security officials to have nearly real-
time information regarding the location of CSX trains and the contents 
of the rail cars transported on our lines. In addition to these Federal 
partnerships, CSX also has partnerships for access to SecureNOW with 
New York, New Jersey, Kentucky, Maryland, Indiana, Ohio, Georgia, 
Florida. These partnerships formalize and enhance CSX's on-going 
commitment to these States and Federal agencies to share information, 
resources, and strategies in order to better protect the communities in 
which CSX operates.
    There are many other examples of successful cooperative initiatives 
involving the TSA and railroads, and railroads appreciate the TSA for 
its role in ensuring these successes. That said, we respectfully 
suggest that there are also some areas where additional progress could 
and must be made. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For example, as Members of this committee know, the TSA has fielded 
more than 400 ``Surface Transportation Security Inspectors'' (STSIs) 
whose duty is to ``assist surface transportation carriers, operators, 
owners, entities, and facilities to enhance their security against 
terrorist attack and other security threats and to assist the Secretary 
in enforcing applicable surface transportation security regulations and 
directives.''\2\
---------------------------------------------------------------------------
    \2\ 6 USC 1113.
---------------------------------------------------------------------------
    Freight railroads readily acknowledge that the rail inspection 
program is well intended. At the same time, though, CSX and the rail 
industry have several concerns regarding the surface transportation 
inspection program.
    First, CSX is very troubled by the lack of consistency in STSIs' 
interpretation of, and action on, regulatory requirements, especially 
with respect to the transport of hazardous materials. Different TSA 
STSIs have interpreted specific provisions of the Rail Transportation 
Security Rule in different ways, and provided contradictory guidance 
regarding what actions are and are not acceptable in meeting the rule's 
requirements. Actions accepted as compliant by some TSA field offices 
have been labeled violations that produce official citations by others. 
Indeed, CSX and other railroads have found that TSA field offices, and 
STSIs often disagree on how to interpret the rule. CSX and other 
railroads have also seen disparities between the policies and 
guidelines issued by TSA's Freight Rail Branch and the actions of TSA 
inspectors in the field. Sometimes, STSIs are not even aware of 
policies that have been clearly expressed by the Freight Rail Branch to 
the railroads they're inspecting.
    Second, it is unfortunate that STSIs' enforcement efforts seem to 
focus on issues that, frankly, are fairly trivial and do not represent 
meaningful homeland security breaches. For example, the Rail 
Transportation Security Rule requires that shippers, receivers, and 
carriers of hazardous materials implement ``chain of custody'' 
requirements for rail cars carrying certain highly hazardous materials. 
Among other things, the transfer of custody from a shipper to a 
railroad, from one railroad to another railroad, and from a railroad to 
a receiver must be documented, with the railroad identifying by name 
the individual with the interchanging railroad, the shipper, or the 
receiver who is present at the time of transfer of custody. CSX has 
received warnings for non-compliance with the chain of custody rule 
because the names of the individuals attending the transfer of custody 
were not spelled the same way as the names on the interchanging 
railroad's form, even if they were phonetically identical.
    CSX respectfully suggests that variations in the spelling of the 
names of the individuals attending the transfer of custody do not 
present a meaningful security breach, especially since the STSIs 
frequently have witnessed the properly executed transfer of custody and 
because spelling variations are inevitable when information is verbally 
exchanged (as specifically allowed by TSA guidance on the issue). In 
fact, these warnings for misspelling have been brought forth by STSIs 
who, at the same time, offer praise for the execution of a flawless 
person-to-person hand-off of these chemicals, attesting to compliance 
with the intended security enhancement of the regulation.
    This example is not isolated. Experience at other freight railroads 
is similar. The inspections focus overwhelmingly on paperwork, 
elevating administrative errors to the level of official letters of 
investigation sent to railroads expressly citing the prospect of a 
$10,000 fine. To be candid, this type of approach to regulatory 
enforcement impugns the integrity of the hardworking professionals who 
strive very hard every day at CSX and other railroads to perform vital 
transportation services safely, efficiently, and in often difficult 
conditions. More importantly, situations like this breed distrust and 
ill feelings for no good reason. They certainly do not advance the 
cause of security enhancement. Furthermore, as the U.S. freight rail 
system continues to advance its use of technology and paperless 
processes, TSA's implementation of a regulation that adheres to the use 
of cumbersome manual procedures is inconsistent with modern-day 
security solutions. CSX respectfully suggests that TSA resources should 
be focused on technology solutions that can provide bona fide 
enhancements to freight rail and National security.
    We believe that the lack of consistency and standardization in 
inspection priorities and activities noted above is related to the 
organizational hierarchy regarding the STSIs. Our understanding is that 
STSIs do not report to the TSA Freight Rail Branch or to a TSA 
headquarters official responsible for surface transportation. Rather, 
STSIs report to Federal Security Directors (``FSD'') in the field who 
primarily focus on aviation security and lack the subject matter 
expertise on surface transportation regulations and policies. This 
arrangement promotes inconsistency of understanding, application, and 
enforcement of security regulations and policies. Although TSA 
appointed Regional Security Inspectors (RSIs) to be liaisons to the 
railroads on surface transportation issues, the RSIs are not in the 
chain of command of the STSIs in the field or the TSA Freight Rail 
Branch and therefore lack the authority to resolve these issues or the 
ability to provide meaningful subject matter guidance on freight rail 
security issues. The appointment letters sent to the railroads in April 
2010 state the RSIs are the ``technical specialist within OSO [Office 
of Security Operations] at the National level for compliance oversight 
activities'' and serve as ``points of contact for the Class I and 
Regional Railroads for matters of regulatory compliance,'' with the 
goal ``to ensure consistent application of regulations both nationally 
and across a railroad's operating system.'' The railroads have 
advocated strongly in joint meetings held by TSA, at which officials of 
OSO have participated, for integration of the RSIs into the oversight 
role defined in their appointment letters. In practice, the RSIs have 
not ever actually played this role.
    Finally, CSX is also concerned that STSIs directly engage rail 
employees in the field without communicating or coordinating with the 
designated Rail Security Coordinator (``RSC''). The Rail Transportation 
Security Rule requires railroads (and other covered entities) to 
designate one primary and at least one alternate Rail Security 
Coordinator (RSC) at the corporate level. At least one RSC must be 
available to TSA 24 hours a day, 7 days a week. The RSC serves as the 
``primary contact for intelligence information and security-related 
activities and communications with TSA.'' Additionally, the RSC is to 
coordinate ``security practices and procedures with appropriate law 
enforcement and emergency response agencies.'' 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    If STSIs identify issues in the field, they should be communicating 
with the headquarters-based RSC, since the STSIs lack the authority and 
means to address the issues with our employees in the field. As TSA 
explained in the preamble to the final rule, ``the RSC must be in a 
position to understand security problems, raise issues with corporate 
leadership, and recognize when emergency response action is 
appropriate.'' Indeed, CSX headquarters personnel cannot take steps to 
address issues identified by TSA in the field if TSA does not 
communicate those issues to us. Our discussions with our counterparts 
at other railroads indicate this is not just an issue for CSX.
        visible intermodal prevention and response teams (vipr)
    The rail industry acknowledges the potential value of the VIPR 
program's random and unpredictable security measures for deterrence and 
disruption of terrorist planning and preparations. Indeed, some 
railroads have hosted deployments and derived substantial benefits from 
the visible security enhancement. We remain concerned, though, about 
inconsistency in the implementation of this program--both in management 
(conflicts and duplications between TSA field offices) and in execution 
of operations (continuing instances of inadequate notice to and 
coordination with railroads on operations).
    In September 2011, the Rail Security Working Committee defined 
protocols to govern the conduct of VIPR operations with freight 
railroads. These protocols, which comport with the provisions of the 
authorizing legislation for the VIPR program, consist of the following 
key points:
  <bullet> Prior notice to the Rail Security Coordinator (RSC) by TSA 
        of all proposed VIPR deployments at least 2 weeks in advance, 
        unless a credible threat or other emergency circumstances 
        dictate otherwise.
  <bullet> To assure consistency, efficiency, and timeliness, 
        coordination with the RSC to be made by the TSA RSI for the 
        participating freight railroad.
  <bullet> Rail safety training and orientation for all participants in 
        the operation.
  <bullet> Joint development by TSA and the affected railroad(s) of the 
        operations plan for each VIPR deployment or group of 
        deployments.
  <bullet> Integration of local law enforcement in the VIPR 
        deployment(s) to foster informed partnerships and elevated 
        preparedness for joint security enhancement actions.
  <bullet> Clearly stated risk-based justifications for the 
        deployments.
  <bullet> Priority attention in joint planning and execution of VIPR 
        deployments at or near the approaches to security control 
        points identified in the rail network identified by TSA's 
        Freight Rail Branch in assessments conducted with the 
        railroads.
    The freight railroads are applying these protocols. However, a 
formal agreement with TSA has proven elusive, apparently due to 
differences amongst the main offices within the agency involved in the 
VIPR program.
                               conclusion
    CSX and others in the rail industry recognize and sincerely 
appreciate the diligent efforts made by TSA, and the many other local, 
State, and Federal personnel who work hard every day to help keep our 
rail network, and our Nation in general, safe and secure. We share 
their goals. Safety and security are, and will remain, our top 
priority.
    That said, we recognize that the freight rail industry and the 
National security environment in which we operate are continually 
changing and new challenges appearing. Effective security enhancement 
can only happen if all stakeholders are on the same page and if 
sufficient consideration is given to the real-world effects (including 
unintended consequences) possible approaches to security policy can 
have. Genuine, open communication between railroads and Government 
security personnel can not only lead to practical solutions, but can 
also open the door to solutions that might not otherwise have been 
apparent.
    CSX and other freight railroads look forward to continuing to 
engage in constructive, meaningful dialogue with Members of this 
committee, TSA, DHS, and others to ensure that our Nation's railroads 
remain the most productive, the most efficient, and the safest and most 
secure in the world.

    Mr. Rogers. Thank you Mr. Elliott for your testimony.
    Our third witness, Mr. Phillip Byrd, currently serves as 
president of Bulldog Hiway Express. I like that name.
    Mr. Byrd. Thank you.
    Mr. Rogers. He is testifying on behalf of the American 
Trucking Association. Mr. Byrd previously served as chairman of 
the South Carolina Trucking Association in addition to being 
the chairman of the South Carolina Maritime Association and 
Charleston Motor Carrier Association. Further, as president and 
CEO of a 50-year-old trucking firm, Mr. Byrd is also a member 
of the board of directors of the American Trucking Association.
    The Chairman now recognizes Mr. Byrd for 5 minutes.

  STATEMENT OF PHILIP L. BYRD, SR., PRESIDENT, BULLDOG HIWAY 
    EXPRESS, TESTIFYING ON BEHALF OF THE AMERICAN TRUCKING 
                          ASSOCIATION

    Mr. Byrd. Thank you, Chairman.
    Chairman Rogers and Members of the subcommittee, thank you 
for the opportunity to testify today on TSA's surface 
transportation inspection program. My name is Phil Byrd, and I 
am president and CEO of Bulldog Hiway Express, a company based 
in Charleston, South Carolina. Today I am also testifying on 
behalf of the American Trucking Association, where I presently 
serve as vice chairman.
    First, I want to thank this subcommittee for addressing the 
continued multiplicity of background checks for commercial 
drivers. ATA is a strong supporter of the Modern Security 
Credentials Act and my hope is that Congress will soon pass 
this bill to bring some common sense to our Government's 
security credentialing process. Again, I thank you for your 
support and leadership on this issue.
    ATA and its members participate in many industry and 
Government efforts to enhance security in the highway sector. 
For example we meet on a quarterly basis, together with 
community stakeholders, TSA officials and other Government 
counterparts to increase communications and share ideas to 
improve the security of our highways. Such initiatives are 
essential to further enhancing cooperation and coordination 
between industry and Government agencies.
    ATA has followed with some interest TSA's efforts to 
establish higher visibility operations in surface 
transportation. These efforts have focused on the use of the 
Visible Intermodal Preparedness and Response program, also 
known as VIPR teams. ATA became aware of the VIPR team highway 
exercise in Georgia and in Tennessee, mostly through the media. 
It is important to note that ATA supports such operations as 
long as they are based on intelligence or specific risks that 
require increased vigilance and security on our highways. At a 
recent meeting, TSA officials informed industry that the 
presence of VIPR teams at highway facilities, such as weigh 
stations, was not due to any specific threat or intelligence. 
Rather, TSA stated that the VIPR teams were invited by State 
law enforcement agencies to augment their security 
capabilities. ATA was informed that during the highway 
operations, VIPR teams distributed information to commercial 
drivers about reporting suspicious activities that they might 
witness while on duty. Deploying VIPR resources for such a 
purpose seems contrary to TSA Assistant Secretary Pistole's 
objectives of employing risk-based, intelligence-driven 
operations to prevent terrorist attacks and reduce 
vulnerabilities. ATA fully agrees with Mr. Pistole's approach 
for deploying agency resources.
    Though the VIPR highway operations made media headlines, 
the same cannot be said of the results of these activities. 
This committee should request reports describing the results of 
the VIPR highway operations as well as other similar 
initiatives. The report should detail the specific objectives 
of such operations and their results. Only when such 
information is provided will this committee, TSA officials, and 
industry representatives be able to assess the cost and 
benefits of undertaking such operations.
    Again, I thank you for the opportunity to testify before 
the committee, and I am pleased to answer any questions.
    [The prepared statement of Mr. Byrd follows:]
               Prepared Statement of Philip L. Byrd, Sr.
                              May 31, 2012
                              introduction
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee on Transportation Security, thank you for the opportunity 
to testify today on TSA's Surface Transportation Inspection Program. My 
name is Phil Byrd and I am president and CEO of Bulldog Hiway Express, 
a company based in Charleston, South Carolina. Founded in 1959, Bulldog 
Hiway Express is an intermodal motor carrier that moved the first 
container to come off a vessel in the Port of Charleston. The company 
has approximately 200 power units, 350 trailers, and 250 employee-
drivers.
    Today, I am also testifying on behalf of the American Trucking 
Associations (ATA) where I presently serve as vice chairman. ATA was 
founded in 1933 and serves as the Nation's preeminent organization 
representing the interests of the U.S. trucking industry. Directly and 
through its affiliated organizations, ATA encompasses over 37,000 
companies and every type and class of motor carrier operation.
    As a longstanding ATA member, I have served on various committees 
within the association including as chairman of its Homeland Security 
Policy Committee (HSPC) and as vice chairman of its Intermodal Motor 
Carriers Conference (IMCC). In those capacities, I have had the 
pleasure to testify before this committee on a number of issues and I 
am pleased to testify today on efforts to secure our surface 
transportation operations.
    First, I want to recognize this subcommittee's Members for their 
efforts and bipartisan leadership in addressing the continued 
multiplicity of Security Threat Assessments (STA) that commercial 
drivers undergo to deliver America's freight. ATA and its members 
strongly support enacting the MODERN Security Credentials Act of 2011 
and we look forward to Congress passing this important legislation. 
This issue remains ATA's top security policy priority for its potential 
to bring relief to millions of truck drivers and thousands of trucking 
companies from unnecessary and overlapping background checks and the 
resulting excessive costs.
    The trucking industry is an integral component of our economy, 
earning more than 80% of U.S. freight revenues and employing 
approximately 7 million workers in trucking-related jobs, including 
over 3 million commercial drivers. It is important to note that the 
trucking industry is comprised primarily of small businesses, with 97% 
of trucking companies operating 20 trucks or less, and 90% operating 
six trucks or less.\1\
---------------------------------------------------------------------------
    \1\ American Trucking Associations, American Trucking Trends 2012 
(March 2012).
---------------------------------------------------------------------------
     highway sector supports strong national and economic security
    The U.S. highway and motor carrier sector has been defined by the 
U.S. Department of Homeland Security (DHS) as one of 19 Critical 
Infrastructures/Key Resources (CI/KR). In 2006, various private-sector 
highway-related organizations established the Highway and Motor Carrier 
Sector Coordinating Council (SCC). The SCC works in partnership with 
public-sector representatives established under a counterpart 
Government Coordinating Council (GCC) under the auspices of the 
Critical Infrastructure Protection Advisory Committee (CIPAC). The SCC 
and GCC have met for the past 6 years on a quarterly basis to share 
ideas and exchange information to improve the security of the Nation's 
highways. In addition to the SCC, ATA and its members participate in 
many industry and Government-led initiatives focused on enhancing 
security and ensuring an open and efficient transportation system to 
deliver America's freight.
    Although a decade has passed since the terrorist attacks of 
September 11, 2001, our Nation continues to maintain a steady level of 
alertness by implementing a number of initiatives, both domestically 
and abroad, to prevent our enemies from planning and executing further 
terrorist attacks against us. To further mitigate the risks of future 
attacks, we must continue to strengthen cooperation between Government 
agencies and private-sector entities, improve coordination among 
Federal, State, and local governments, and we must coordinate closely 
with our international trade partners.
       tsa efforts to secure surface transportation highway mode
    In addition to various security regulations that TSA has 
implemented, many directly impacting the highway sector, TSA has 
initiated efforts to increase its operational presence throughout the 
transportation sector. For example, last October it was widely reported 
that TSA deployed Visible Intermodal Prevention and Response (VIPR) 
teams at several locations along highways in Tennessee.\2\ A similar 
``counter-terrorism exercise'' was conducted in the fall of 2010 in 
Douglas County, Georgia on Interstate 20 which also involved the 
participation of VIPR teams with commercial vehicles stopped and 
inspected.\3\ According to media reports, the inspections that took 
place in Georgia involved more intensive inspections, including sending 
trucks through equipment measuring radiation.
---------------------------------------------------------------------------
    \2\ http://www.newschannel5.com/story/15725035/officials-claim-
tennessee-becomes-first-state-to-deploy-vipr-statewide.
    \3\ http://www.wsbtv.com/news/news/counter-terror-operation-stops-
trucks-on-i-20/nFCry/.
---------------------------------------------------------------------------
    At a meeting of the Highway Motor Carrier SCC and GCC earlier this 
month, TSA officials informed industry representatives that no specific 
intelligence or threat information compelled TSA to mobilize VIPR teams 
for these operations at highway facilities including commercial vehicle 
weigh stations. Rather, TSA officials stated that the VIPR teams were 
present at such locations at the invitation of State law enforcement 
entities, such as the Tennessee Highway Patrol, to augment the security 
capabilities of State law enforcement personnel and to increase the 
visibility of such operations.
    ATA does not oppose TSA mobilizing VIPR teams within the surface 
transportation arena as long as such mobilizations are undertaken to 
increase the level and presence of law enforcement personnel based on 
sound intelligence that warrant a heightened level of security. 
However, it seems that the presence of VIPR teams in Tennessee last 
October was not based on any specific threat or intelligence calling 
for an increase presence of security personnel. Instead, it appears 
that the VIPR teams were present to distribute information to 
commercial drivers about means to report suspicious activities they 
might witness while performing their duties.
    As a key agency within DHS, TSA can have a positive impact by 
strengthening the partnership with private-sector counterparts, 
including the development of security initiatives or training 
exercises. Unfortunately, it appears that the objectives of the VIPR 
team operations that took place in Tennessee did not follow a 
fundamental goal enunciated by TSA's leadership. On June 2, 2011, 
Assistant Secretary John Pistole made the following statement at a 
hearing before this committee:

``TSA employs risk-based, intelligence-driven operations to prevent 
terrorist attacks and to reduce the vulnerability of the Nation's 
transportation system to terrorism . . . TSA works collaboratively with 
industry partners to develop and implement programs that promote 
commerce while enhancing security and mitigating the risk to our 
Nation's transportation system.''\4\
---------------------------------------------------------------------------
    \4\ Pistole, John S.; Statement before the Subcommittee on 
Transportation Security, June 2, 2011, p. 1.

    ATA fully agrees with Mr. Pistole's approach and we are ready to 
work with him, his TSA colleagues, and other Federal agencies to 
improve the security and safety of the transportation sector using a 
risk-based approach. Because both Government and private-sector 
resources are finite, it is critical that such resources are dedicated 
to programs and operations in areas that face a constant heightened 
level of risk or in sectors where sound intelligence and specific 
threat analysis indicate a need for increased security.
    If TSA is going to conduct operations or exercises as those 
described in Georgia and Tennessee, ATA requests that the agency inform 
trusted industry representatives, such as SCC members, that such 
initiatives are likely to take place in particular time frames and 
geographic areas to ensure commercial trucking operations can plan 
accordingly and not face unnecessary disruptions for time-sensitive 
deliveries. Also, involving or raising awareness about such operations 
with trucking companies could improve the outcomes of such exercises, 
especially if the goal of such operations is to provide commercial 
drivers with information about security awareness.
    In regards to outcomes, ATA further recommends that this committee 
require TSA to report and provide specific information about the 
results of such VIPR highway operations, and any other similar 
initiatives that the agency implements in the surface transportation 
sector. Such reports should clarify if the operations were conducted 
due to specific intelligence or threat information, or if such 
operations were conducted simply as training or information exercises. 
These reports would provide valuable information regarding the costs 
and benefits of such exercises and efforts, and should also provide TSA 
with valuable information regarding potential improvements and the 
actual value of undertaking VIPR operations in the highway environment.
                               conclusion
    As this committee considers the present security challenges within 
the surface transportation sector and how to mitigate these risks, ATA 
reiterates the importance of improving communication between industry 
and the various levels of Government to strengthen our security posture 
and capabilities.
    The private sector and Government share a strong mutual goal of 
impeding any potential terrorist attacks on our Nation. At a similar 
hearing before this committee last year, ATA described how an alert 
trucking company employee prevented a terrorist plot involving 
explosives. In that case, the employee recognized and researched some 
of the materials listed in a package and alerted the company's security 
team. Federal law enforcement personnel were brought in and the would-
be terrorist was eventually arrested when he tried to pick up the 
package.
    As with other terrorist plots inside the United States, this event 
garnered much media attention. One media outlet described the events 
that transpired as follows:

``In the end, it wasn't a TSA agent, a Homeland Security operative or 
an FBI agent who first spotted alleged terror plotter Khalid Ali-M 
Aldawsari. It was the employees of a private shipping company. 
According to the government, somebody at the shipping company called 
local police after becoming suspicious about a chemical package that 
Aldawsari was set to receive.
``Meanwhile, officials at the chemical company that sent the material 
called the FBI with their suspicions about Aldawsari--and later worked 
with an FBI agent who posed undercover as a company employee in 
dealings with the suspect.''\5\
---------------------------------------------------------------------------
    \5\ ``How Two Companies Stopped a Terror Suspect'', CNBC.com; 
February 24, 2011; http://m.cnbc.com/us_news/41766933.

    This incident underlines the fact that industry, just as much as 
Government, has increased its level of alertness and vigilance to 
prevent terrorists from utilizing or targeting our U.S. transportation 
system, including the surface modes.
    ATA and its members are presently participating in a number of 
information-sharing initiatives to facilitate the flow of information 
and intelligence to improve the security posture of our industry. 
Initiatives involving the Homeland Security Information Network, the 
Office of the Director of National Intelligence, the FBI's InfraGard 
program, as well other Federal, State, and local efforts, are allowing 
industry to share information directly with the intelligence and law 
enforcement community.
    ATA urges this committee to encourage Federal agencies to continue 
improving information-sharing initiatives and cooperation as a better 
alternative to establishing security operations that do not have clear 
goals and objectives, and that are undertaken without any specific 
intelligence or information that call for heightened levels of security 
in our Nation's transportation system.
    I thank you again for the opportunity to testify before this 
committee and I am pleased to answer any questions.

    Mr. Rogers. Thank you Mr. Byrd for your testimony.
    Our next witness, Mr. William Blankenship, is chief 
operating officer of Greyhound Lines. Mr. Blankenship has been 
with Greyhound Lines since 1996. As chief operating officer, 
Mr. Blankenship oversees the operations of Greyhound Lines as 
well as monitors safety and security. Prior to becoming COO of 
Greyhound Lines, Mr. Blankenship served as the division 
director and general manager for the western region.
    The Chairman now recognizes Mr. Blankenship for 5 minutes.

 STATEMENT OF WILLIAM C. BLANKENSHIP, CHIEF OPERATING OFFICER, 
                     GREYHOUND LINES, INC.

    Mr. Blankenship. Good afternoon.
    Chairman Rogers and Members of the subcommittee, I am Bill 
Blankenship, chief operating officer of Greyhound Lines, and I 
am honored to be here today to discuss intercity bus security 
and the TSA's Surface Inspection Program.
    In October 2001, less than 30 days after 9/11, a terrorist 
attacked and overpowered the driver of an Atlanta-bound ground 
bus, took over the bus and crashed it, killing 7 passengers, 
including the terrorist, and injured 30. Not knowing if this 
was the first of a coordinated series of attacks, Greyhound's 
CEO ordered the Nation-wide shutdown of all Greyhound service. 
After approximately 12 hours, the FBI determined that this was 
the work of a lone wolf and Greyhound services resumed. It 
underscores the vulnerability of America's uniquely accessible 
intercity bus network.
    Greyhound buses serve every major city in the Continental 
United States with open terminals in downtown locations, and 
operate over almost every interstate highway across most of the 
Nation's major bridges, with multiple daily trips.
    Greyhound has responded vigorously to the terrorist threat. 
Since 2001 we installed driver shields and on-board emergency 
communications and threat response systems on buses, installed 
or upgraded facilities security systems, instituted random 
screening of passengers at major terminals, and conducted 
security training for all operational and maintenance 
personnel.
    Greyhound has also participated in two programs that 
involved TSA surface transportation inspectors: The base 
assessment and the Visible Intermodal Prevention and Response 
program, VIPR. These programs have been somewhat helpful to 
Greyhound but are not at the core of Greyhound's security 
efforts.
    Under the base assessment, TSA inspectors do an on-site 
analysis of individual Greyhound terminals. A score is assigned 
based on analysis, and recommendations are made for security 
improvements at each terminal. Some of these recommendations 
are helpful, although others are not particularly realistic in 
the context of a bus terminal. So far there have been eight 
Greyhound terminals that participated in this analysis.
    The VIPR teams are groups of two or more individuals that 
do sweeps of bus terminals looking for potential terrorists or 
suspicious activity. These visits are completely random and 
appear to be more focused on transit and Amtrak. Greyhound does 
not usually receive any feedback after these visits. The visits 
are useful as a visible deterrent when they occur, but 
Greyhound's own security efforts are concertedly more important 
in addressing our security.
    One area of concern that we have is the silo approach to 
surface transportation security that TSA has taken in the past. 
This limits the effectiveness of TSA's surface transportation 
efforts. For example, TSA funding canine explosive detections 
for major transit agencies. Greyhound tried to get TSA to 
authorize the use of these dogs at nearby Greyhound terminals 
which would have little if any incremental cost, but we could 
not break through the modal walls at TSA to make that happen.
    We are pleased that recently TSA has taken action to 
integrate all the surface transportation modes under a new 
director of surface transportation. We recently met with the 
new director and are encouraged that he understands the risks 
associated with intercity bus service and will move to 
integrate intercity buses into TSA's security program in a way 
that will enhance overall surface transportation security.
    The single most important TSA activity with regard to 
intercity bus security is its administration of the intercity 
bus security grant program, which has averaged around $10 
million per year through fiscal 2011. In fiscal 2012, Congress 
included the intercity bus security grant program as one of the 
eligible surface transportation programs, but DHS chose not to 
make funding available for it. We believe that intercity bus 
security projects should remain eligible for Federal funding, 
either through a combined surface transportation fund or 
otherwise. The fact is that intercity buses carry roughly 720 
million passengers annually, which is comparable to the 
airlines. Given those numbers and the worldwide track record of 
terrorist bus attacks, it is difficult to conclude that a 
Federal security program that makes billions of dollars 
available for aviation security and nothing for intercity bus 
security is well-balanced. In our view, priority projects such 
as maintenance of Greyhound passenger screening programs should 
continue to be supported.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Blankenship follows:]
              Prepared Statement of William C. Blankenship
                              May 31, 2012
    Chairman Rogers and Members of the subcommittee, I am Bill 
Blankenship, Chief Operating Officer of Greyhound Lines, Inc., Dallas, 
TX, and I am honored to be here today to discuss intercity bus security 
and the Transportation Security Administration's oversight of surface 
transportation security.
    In early October, 2001, less than 30 days after 9/11, a terrorist 
attacked and overpowered the driver of an Atlanta-bound Greyhound bus, 
took over the bus and crashed it, killing 7 passengers, including the 
terrorist, and injuring 30. Not knowing if this was the first of a 
coordinated series of attacks, Greyhound's CEO ordered the Nation-wide 
shutdown of all Greyhound service. After about 12 hours, the FBI 
determined that this was the work of a ``lone wolf'' Croatian 
individual, and Greyhound services resumed.
    As far as I know, this is the only ``successful'' terrorist attack 
on a U.S. transportation system since 9/11. It underscores the 
vulnerability of America's intercity bus network, and was a wake-up 
call for Greyhound, which is the only Nation-wide intercity bus system 
in the United States.
    Intercity buses (a/k/a motorcoaches or over-the-road buses) are 
inherently vulnerable to terrorist attacks because of their unique 
public accessibility. Greyhound buses serve every major city in the 
continental United States with open terminals in downtown locations and 
operate over almost every interstate highway and cross most of the 
Nation's major bridges with multiple daily trips.
    Several studies in recent years have shown that worldwide, buses 
are the most vulnerable to terrorist attacks of all modes of 
transportation. A 2009 GAO Report to this committee found that between 
1997 and 2008, there were 510 terrorist-related commercial bus and 
truck bombing attacks worldwide, killing over 6,000 people. Over 70% of 
those attacks were bus or bus terminal-related.\1\ The Mineta 
Transportation Institute maintains a database of all surface 
transportation attacks from 1970 through 2009. Its latest report 
indicates that during that period, there were 757 terrorist attacks on 
buses and bus stations compared to 442 attacks on trains and train 
stations.\2\
---------------------------------------------------------------------------
    \1\ Government Accountability Office Report to the Chairman, 
Committee on Homeland Security, House of Representatives entitled 
``Commercial Vehicle Security, Risk-Based Approach Needed to Secure the 
Commercial Vehicle Sector,'' GAO-09-85, February, 2009, see page 11.
    \2\ Mineta Transportation Institute, Terrorist Attacks on Public 
Bus Transportation: A Preliminary Empirical Analysis, MTI Report WP 09-
01, March, 2010, see page 19.
---------------------------------------------------------------------------
    While intercity buses and terminals are vulnerable to attack, their 
use as a delivery mechanism for other weapons may leave the Nation's 
critical infrastructure vulnerable. This mobility is a material 
differentiator between intercity bus and mass transit.
    Greyhound has responded vigorously to the terrorist threat. Since 
2001, we have completed several comprehensive assessments of the risks 
facing Greyhound and have taken numerous actions to reduce those risks. 
These actions include:
  <bullet> installing driver shields on all Greyhound buses to limit a 
        terrorist's ability to attack the driver;
  <bullet> installing an on-board emergency communications and threat 
        response system on all buses, which includes remote vehicle 
        disabling (kill switch), driver authentication, and an enhanced 
        emergency communications and response system, and finalizing 
        geo-fencing and real-time bus inventory components of that 
        system;
  <bullet> installing and/or upgrading security fencing and lighting 
        and CCTV camera systems in major terminals and garages;
  <bullet> random magnetometer screening of passengers and their bags 
        at major terminals; and
  <bullet> security training for all personnel with operational or 
        maintenance responsibilities.
    Greyhound has also worked with TSA in a variety of ways, including 
two programs that involve TSA surface transportation inspectors, the 
Base Assessment program and the Visible Intermodal Prevention and 
Response (VIPR) teams. These programs have been somewhat helpful to 
Greyhound, but are not at the core of Greyhound's security efforts.
    Under the Base Assessment program, a team of 2-4 TSA inspectors do 
an on-site analysis of individual Greyhound terminals, including a 
questionnaire of more than 100 questions concerning the security 
practices at that terminal. A score is assigned based on that analysis 
and recommendations are made for security improvements at that 
terminal. Some of those recommendations are helpful, although others 
are not particularly realistic in the context of a bus terminal. So 
far, there have been 8 Greyhound terminals that have participated in 
that analysis.
    The VIPR teams are groups of 2 or more individuals that do 
``sweeps'' of bus terminals looking for potential terrorist activity. 
Although we are generally notified ahead of time, these visits are 
completely random. They appear to be more focused on transit and 
Amtrak. The Greyhound visits are infrequent and Greyhound does not 
usually receive any feedback after these visits. The visits are useful 
as a visible deterrent when they occur, but Greyhound's own security 
efforts are considerably more important in addressing our security 
needs.
    Greyhound has partnered with TSA in several other important ways.
    TSA and Greyhound participated in a pilot program to test airport-
style baggage screening devices in Los Angeles and Houston. Results of 
the program revealed an annual estimate of 500,000 items that could be 
used to overtake Greyhound's drivers. Moreover, the pilot program 
proved the viability of reducing National infrastructure risk by 
deploying TSA surplus equipment, currently warehoused. However, the 
cost of Greyhound's operating and maintaining the equipment would be 
prohibitive.
    TSA and Greyhound partnered on a pilot program to test the use of 
canine teams in several terminals. The tests demonstrated that canines 
were effective as explosive screeners and as highly visible deterrents 
to terrorists, but were not practical in bus terminals unless used 
along with the facilities of other modes.
    Greyhound participates in TSA's First Observer and TSOC reporting 
program. Greyhound is an active participant in reporting suspicious 
behavior and incidents that could be of a terroristic nature. Moreover, 
Greyhound has adopted ``See Something, Say Something'' in its efforts 
to build a culture of awareness and maintains a solid relationship with 
DHS intelligence.
    Greyhound also participates in TSA's Intermodal Security Training 
and Exercise Program, which provides table-top exercises and security 
training and planning tools and services to the transportation 
community.
    Finally, in support of our partnership, Greyhound donated 2 buses 
for TSA to use as part of its training curriculum at the Transportation 
Technology Center. In addition, the CEO of Greyhound, our Director of 
Security and myself visited the Transportation Technology Center in 
support of their efforts.
    Overall, Greyhound believes that these TSA initiatives have helped 
Greyhound to sharpen its focus on what works and what doesn't with 
regard to improving intercity bus security.
    One area of concern that we have is the ``silo'' approach to 
surface transportation security that TSA has taken in the past. This 
limits the effectiveness of TSA's surface transportation efforts. For 
example, TSA has funded canine explosive detection for major transit 
agencies. Greyhound tried to get TSA to authorize the use of those dogs 
at Greyhound terminals that were either part of an intermodal facility 
with transit or close to transit facilities. It seemed to us that with 
little, if any, incremental cost, canine explosive detection could be 
extended to many major Greyhound terminals. But we could not break 
through the modal walls at TSA to make that happen.
    We are pleased that recently TSA has taken action to integrate all 
of the surface transportation modes under a new Director, Surface 
Transportation. We believe that action should help remove the modal 
barriers to cooperation and efficiency and provide a better platform 
for TSA to assess the highest risks among the modes and respond 
effectively to those risks. We recently met with the new Director and 
are encouraged that he understands the risks associated with intercity 
bus service and will move to integrate intercity buses into TSA's 
security programs in a way that will enhance overall surface 
transportation security.
    The single most important TSA activity with regard to intercity bus 
security is its administration of the Intercity Bus Security Grant 
Program. From 2003 through 2011, Congress appropriated a small fund for 
intercity bus security. That program was formalized in Public Law 110-
53, The Implementing Recommendations of the 9/11 Commission Act of 
2007, as the Intercity Bus Security Grant Program. The IBSGP averaged 
around $10 million per year with $5 million appropriated in fiscal year 
2011. In fiscal year 2012, Congress included the IBSGP as one of the 
eligible surface transportation programs for preparedness funding, but 
DHS chose not to make any funding available for the IBSGP.
    Although the IBSGP grants have been processed by FEMA, TSA has made 
all of the substantive decisions with regard to the program. We think 
that TSA has done a good job administering the program. Each year, it 
has conducted a rigorous competition with awards based on a 
comprehensive risk-based analysis. Greyhound, as the Nation's only 
Nation-wide intercity bus system, has received the largest amount of 
program funds, but more than 100 other bus companies have received 
awards since the program began.
    IBSGP funds have greatly enhanced the security of the National 
intercity bus system. It helped Greyhound pay the capital costs of the 
on-board emergency communications system and the facility security 
upgrades and it has enabled Greyhound to roughly double the size of its 
passenger screening program. Without these funds, the capital would not 
have been available for the emergency communications system and the 
facility security upgrades and the screening program would have been 
much smaller. It is important to emphasize that Greyhound spends 
roughly $10 million per year of its own funds on security, including at 
least a 25% match for the IBSGP funds and all of the on-going operating 
funds associated with the emergency communications and facility 
security capital grants.
    For the last several years, the administration's budget proposal 
has recommended terminating the IBSGP on the grounds that there was no 
risk assessment of intercity bus security and the private sector could 
make these investments. It recommended combining the program with the 
transit and rail programs and prioritizing the risks within that 
combined program. We note that both the GAO and Mineta reports 
establish the inherent vulnerability of intercity buses, and indeed, 
TSA has done its own risk assessment and has recommended a program like 
the IBSGP.\3\
---------------------------------------------------------------------------
    \3\ Transportation Security Administration, Over-the-Road Bus 
Security Assessment, January 4, 2010.
---------------------------------------------------------------------------
    We do think that intercity bus security projects should remain 
eligible for Federal funding, either through a combined surface 
transportation fund or otherwise. The fact is that intercity buses 
carry roughly 720 million passengers annually, which is comparable to 
the airlines. Given those numbers and the track record of terrorist bus 
attacks, it is difficult to conclude that a Federal security program 
that makes billions of dollars available for aviation security and 
nothing for intercity bus security is well-balanced. In our view, 
priority projects such as maintenance of Greyhound's passenger 
screening program should continue to be supported.
    Thank you for this opportunity to testify. I would be happy to 
answer any questions you might have.

    Mr. Rogers. Thank you Mr. Blankenship for your testimony.
    Our final and eagerly anticipated witness Mr. Morris: Mr. 
Morris serves as director of safety and security operations, 
Owner-Operator Independent Drivers Association. He also serves 
as vice chairman of the Department of Homeland Security's 
Highway-Motor Carrier Sector Coordinating Council, the HMCSCC. 
Mr. Morris was previously commander of the transportation 
security section and the transportation safety division of the 
Maryland State Police, has over 28 years of experience in 
transportation safety.
    The Chairman now recognizes Mr. Morris for his opening 
statement.

    STATEMENT OF DOUG MORRIS, DIRECTOR, SAFETY AND SECURITY 
   OPERATIONS, OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION

    Mr. Morris. Thank you, Chairman Rogers. Good afternoon. My 
name is Doug Morris and I am currently the director of safety 
and security operations for the Owner-Operator Independent 
Drivers Association. I have over 28 years of experience in 
transportation safety and security, including commanding 
positions within the Maryland State Police.
    Approximately 150,000 members are small business truckers 
from all 50 States. The majority of trucking in this country is 
small business; 93 percent of our Nation's motor carriers own 
20 or fewer trucks. More than 69 percent of all freight tonnage 
is moved by truck, and the bulk of those shipments are 
completed by small business truckers.
    Involving the men and women who make their livelihoods 
behind the wheel of a truck makes sense for our Nation's 
homeland security efforts. These men and women travel through 
all areas of our infrastructure. With the proper training, 
these individuals add tremendous value to securing our Nation.
    The First Observer program, of which OOIDA is a strong 
partner, is DHS's tool for providing them that training. First 
Observer helps promote the security of our transportation 
infrastructure by enabling the sharing of information from 
well-trained and concerned professionals who have the capacity 
to observe, assess, and report risk and potential security 
breaches. OOIDA brings to the program its unique perspective 
and experience to help develop training modules that enhance 
participation from professionals, like truckers, of a 
particular vantage point to best report suspicious activity 
that may have been overlooked in the past.
    First Observer currently offers 12 different training 
modules, covering everything from truck and motor coach drivers 
to port and highway workers. One example of how this training 
is best utilized was during the lead-up to the 2012 Super Bowl. 
First Observer trainers trained over 1,000 event staff and 
other related personnel in homeland security awareness. First 
Observer is the only program that is capable of meeting these 
specialized training needs while also engaging the thousands of 
long-haul truck drivers on the road every day. It is truly a 
force multiplier for homeland security.
    Some of the recent success stories that I can speak of 
include a full hijacking of a motor coach, the disruption of a 
bomb plot targeting former President George W. Bush, and foiled 
plots against West Coast power plants. These successes validate 
the First Observer mission. OOIDA has learned that 
transportation professionals are more receptive to training 
from individuals who have distinct knowledge and first-hand 
experience of their industry. Feedback from our members 
participating in the First Observer program show that the 
training that they received was geared specifically towards 
them and they felt part of the mission. This program takes 
homeland security seriously; and in return, First Observer 
members are taking it seriously and are helping to make this 
program a success.
    To the best of my knowledge, First Observer has far 
exceeded TSA's expectations. The program has been endorsed by 
137 industry and affiliate associations and organizations. 
Despite these successes, the program faces challenges. First 
Observer has been operating under a no-cost extension since 
January 1, 2012. Broader budgetary challenges, unbalanced 
funding, and resource priorities within DHS--especially TSA--
threaten this program's ability to continue its mission. 
Allowing this program to falter would send a clear message that 
TSA places greater value on other modes of transport. It is 
widely known that the lion's share of funding within TSA is 
allocated toward the aviation sector. Less than 2 percent is 
dedicated to the surface transportation arena, not taking in 
regard the significant economic importance of surface 
transportation trade and its infrastructure. OOIDA is hopeful 
that Congress will address this imbalance.
    First Observer participants are committed to playing a role 
in ensuring the protection of our country, but they need a 
commitment from Congress and the Department. Training our 
Nation's collective surface transportation personnel on what to 
observe, assess, or report in their areas of expertise helps 
achieve homeland security's overall mission at a cost below 
some of TSA's other priorities, especially those focused on 
substituting technology for real live professional eyes on the 
road.
    To date, First Observer has over 160,000 program members. 
Of these, we have several hundred school bus and truck drivers 
in the Chairman's district alone, as well as over 2,000 in the 
Ranking Member's district. This program has proven its value 
and it is an activity that should be prioritized moving 
forward.
    Thank you very much for your time, and I am happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Morris follows:]
                   Prepared Statement of Doug Morris
                              May 31, 2012
    Good afternoon Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you very much for 
inviting me to testify this afternoon on the subject of surface 
transportation security. My name is Doug Morris and I have been 
involved with transportation safety and security for over 30 years and 
currently serve as the director of safety and security operations for 
the Owner-Operator Independent Drivers Association (OOIDA). I also 
represent the Association as the vice chairman of the Department of 
Homeland Security's Highway Motor Carrier Sector Coordinating Council. 
Prior to joining the staff at OOIDA I was employed as a Maryland State 
Trooper--retiring in 2009 after 28 years of service. During my tenure 
with the Maryland State Police, I served as the assistant commander of 
the Commercial Vehicle Enforcement Division as well as the commander of 
the Transportation Security Section and Transportation Safety Division. 
I have received over 500 hours in advanced training in the 
transportation and handling of hazardous, radioactive, and biological 
materials as well as emergency management, disaster assistance, and 
incident command.
    The Owner Operator Independent Drivers Association is the 
international trade association representing the interests of small 
business trucking professionals and professional drivers on all matters 
that affect the trucking industry. OOIDA currently has more than 
150,000 members who collectively own and operate over 200,000 
individual heavy-duty trucks Nation-wide. Small-business trucking 
companies dominate the industry with approximately 93% of U.S. motor 
carriers operating 20 or fewer trucks in their fleets, 78% operating 5 
or fewer trucks and roughly half of the motor carriers registered with 
the Federal Motor Carrier Safety Administration having fleets of just 1 
truck. Considering that 69 percent of freight tonnage in the United 
States is moved by truck, and the bulk of that is by small business 
truckers, OOIDA and its members have a unique perspective on a variety 
of facets of the infrastructure system. It makes sense for the U.S. 
Government to partner with small businesses to act as the eyes and ears 
in the interest of furthering National security. It should also be 
noted that over 40% of OOIDA's members have prior military service and 
as a group are steadfastly patriotic. As such, involving the trucking 
community, specifically the men and women who make their living behind 
the wheel, is a natural fit as they simply want to be involved and with 
the proper training these individuals add tremendous value to securing 
our Nation's infrastructure.
    First Observer is a program that helps promote the security of our 
transportation infrastructure by enabling the sharing of information 
from well-trained and concerned professionals who have the capacity to 
observe, assess, and report risks and potential security breaches. As 
you may be aware, the program was originally created by the TSA's 
Highway Motor Carrier Division when private infrastructure security 
professionals observed a need and desire for such a program and worked 
to initiate the program almost immediately. OOIDA was among the first 
supporters and helped secure the viability of the exceptional 
opportunity by obtaining a trademark for the First Observer name and 
logo. Through trademarking and securing the brand, we not only helped 
to ensure that the program is officially recognized and helped raise 
awareness, but it also gave the TSA the ability to have control over 
the brand for future use so that it may seamlessly continue under the 
current name and not be subject to rebranding based on changing or 
evolving participants. In short, it gave the program foundation and 
continuity from the inception so that it has a better chance of 
success. Branding and re-branding has been problematic for similar 
programs--including the predecessor to First Observer. So, solving this 
simple problem was a necessary and important first step in order to 
make it recognizable, reliable, and trustworthy in eyes of both 
transportation industry and homeland security professionals.
    As an association that has been in existence for nearly 40 years 
representing the men and women of the professional truck driving 
community, OOIDA brings to the program its unique perspective and 
experience in safety and security to help facilitate a dialogue between 
trucking, law enforcement, and other transportation/security 
professionals in the identification of areas where specific security 
training should be conducted. As a result of this dialogue and our 
input, training modules have been developed and implemented to enhance 
participation from those professionals who best know their working 
environment and who have a particular vantage point to best report 
suspicious activity that may have been overlooked in the past.
    As you are likely aware, currently there are 12 training modules in 
operation which address the following topics: Trucking and Motor Coach, 
School Bus, Intra and Inter City bus, Law Enforcement, Highway Workers, 
Critical Infrastructure Protection Professionals, Ports, Hazmat, Cargo, 
Truck Rental, Parking and Event Staff, and Food Safety and Security. 
The purpose for developing these as individual training modules was to 
directly address areas that were of specific concern in the counter-
terrorism field. Recent success stories of the program include a foiled 
hijacking of a motor coach traveling between Arlington, Virginia, and 
Durham, North Carolina; the disruption of a Texas bomb plot targeting 
former President George W. Bush; and foiled plots against power plants 
along the West Coast. All of these successes validate the First 
Observer mission. If not for a transportation professional that knew 
their business and knew that something was suspicious about numerous 
deliveries of hazardous materials to a private residence, a terrorist 
act on U.S. soil may have resulted.
    Since OOIDA's involvement with this program, we have learned that 
transportation professionals are more receptive to individuals who have 
distinct knowledge and first-hand experience of their industry. 
Previous training programs in this area were flawed as they tended not 
to be geared toward the end-user. In the past participants may have 
been involved in a previous homeland security presentation or training, 
but did not feel that the training addressed their needs or concerns 
and the instructors had little or no knowledge of their industry. In 
short, OOIDA knows trucking and can communicate with the men and women 
who comprise the truck driving community in the United States. We know 
that many of these professionals, who are working daily within a 
variety of surface transportation venues, feel a tremendous sense of 
pride and duty as a participant in First Observer. They feel as if they 
are a part of a public/private sector cooperative that is vital to 
helping protect the infrastructure that millions, including themselves, 
rely heavily upon to meet their most basic needs. They know that the 
training that they received was geared specifically toward their 
industry and was produced by professionals in their line of work in 
coordination with law enforcement and counter terrorism professionals 
who have been brought together under one roof. This program takes 
trucking seriously and in return, truckers are taking it seriously and 
helping to make this program a success.
    To the best of my knowledge, the First Observer program has far 
exceeded TSA's expectations and has been recently moved from the former 
Highway Motor Carrier Division of TSA to the Surface Transportation 
Division, a sign of its integral role in the Department's broad 
mission. The program has been endorsed by 137 industry and affiliate 
associations and organizations.
    Despite these successes, the program faces near- and long-term 
challenges. First Observer has been operating under a no-cost extension 
since January 1, 2012. Broader budgetary challenges throughout the 
Federal Government, from the recent history of funding DHS activities 
through continuing resolutions or delayed appropriations bills to 
unbalanced funding and resource priorities within DHS, especially the 
TSA, threaten the program's ability to meet its requirements from the 
Department.
    Allowing this program to falter would send a clear message to 
surface transportation professionals that TSA places much greater value 
on other transport modes and their mode as unimportant if not 
irrelevant. It is widely known that the lion's share of funding within 
TSA is allocated towards the aviation sector and relatively little is 
dedicated to the surface transportation arena where the economic and 
other costs of a homeland security incident could far exceed those that 
this Nation suffered on September 11, 2001. Congress has an opportunity 
to address this imbalance and ensure needed prioritization within TSA.
    One of the major benefits First Observer has is its flexibility, 
and I would like to offer a few examples. The first was the program's 
ability to train dozens of parking lot attendants working the 2012 
Super Bowl in Indianapolis. Our training ensured that these workers, 
many of whom were hired on a temporary basis, were on watch during one 
of our Nation's highest-profile public events.
    In the same vein, First Observer training has been given to 
numerous airport service personnel throughout the country as many had 
no training in what to observe, assess, or report related to surface 
transportation in their environment. With continued or additional funds 
to the program it could be easily expanded to all aspects of surface 
transportation specifically, in areas of concern such as the rail 
sector, public utilities, and any other venue that could become a 
target of future terrorist acts. These are areas where we should 
continue to expand and improve upon the continued successes of the 
First Observer program.
    It is more cost-effective to be proactive as opposed to being 
reactive and throwing money at something to attempt to secure it at all 
costs. Training our Nation's collective surface transportation 
personnel on what to observe, assess, and report in their areas of 
expertise would help homeland security's overall mission.
    Thank you very much for your time. I am happy to answer any 
questions you may have.

    Mr. Rogers. Thank you, Mr. Morris. I do agree with you; we 
can be smarter about the way we are spending our money. That is 
one of the reasons we want to have this testimony on the 
record.
    Mr. Rogers. I will recognize myself for the first set of 
questions. Chief O'Connor, what did you mean when you said TSA 
should have more operational focus? What does that term mean to 
you?
    Chief O'Connor. As I said in my testimony, Amtrak's 
approach is prevention, partnership, and participation. I think 
that is where the TSA inspectors should be focusing their 
efforts. They should be helping agencies in direct prevention 
efforts, like supporting the VIPRs. They should be helping us 
partner with the communities to help protect the local transit 
systems, and they should be helping us train our employees and 
doing public outreach, not going out enforcing regulations that 
do not add to the value of security.
    Mr. Rogers. Have you noticed the increased numbers of these 
TSA assets in your stations?
    Chief O'Connor. We get a lot of support on the normal 
VIPRs. In terms of the inspectors, we are getting sporadic 
reports around the country on showing up and station profiles 
and efforts that I am sure are well-intentioned but I am not 
sure add to the value of security. They did assist us with our 
base program. But again, once the program is in place, where do 
we go from there?
    Mr. Rogers. Well, I had the privilege of visiting with one 
of your facilities in New York a couple of weeks ago, and I was 
very impressed with what you are doing with vapor-wake canines. 
As you know I am a big supporter of that.
    Mr. Elliott I am aware that Alabama participates in the CSX 
Secure Now program. Can you elaborate more on that, please?
    Mr. Elliot. Yes, Mr. Chairman. First of all, I would like 
to thank the State for participation in what we think is a very 
worthwhile program. At CSX we believe that transparency is very 
important in building solid and credible security partnerships. 
Our Secure Now program is actually a technology-based program 
that allows bona fide security, homeland security agencies--in 
the case of the States, it is typically State homeland fusion 
centers. We also have partnerships at several Federal agencies 
that actually allow these agencies to see in a real-time format 
every train that is operating on CSX transportation and then to 
quickly identify every railcar, every commodity that is being 
transported within those trains. We think that is very 
important, because oftentimes States and Federal agencies may 
be dependent upon CSX to translate information, and you lose 
valuable time.
    What the Secure Now program does is it allows these State 
and Federal homeland security centers to have this real-time 
access to all CSX trains and commodities so, if they do get an 
indication of a credible or confirmed threat, they can see the 
rail commodities that are moving through their States on CSX 
and they can take the appropriate action by contacting CSX, so 
we can either stop trains or move trains through at a faster 
pace in order to provide the level of security that we need.
    Mr. Rogers. Great. Do we have a way for this to be put up 
on the screen?
    Well, visually, I hope that you can get the gist of this. 
But in 2008, we had just under 200 of these inspectors for 
surface transportation. In a 5-year period you can see it has 
doubled to where we now have 404 of these inspectors.
    My question is: Do y'all think that we have seen a 
commensurate enhancement of security or not? I will open that 
up to anybody. I will start with you, Mr. Elliott.
    Mr. Elliot. Mr. Chairman, I think it is fair to say that, 
much like my colleagues on the witness stand today, we 
appreciate a lot of the very good work that TSA does. However, 
it has been our experience that with the increase of surface 
transportation inspectors, who we see with increased frequency 
in our rail yards, that really all we are seeing is not just 
one inspector who would come to kind of review the transfer of 
custody regulation, but we are seeing multiple inspectors 
basically just showing up to look at the same regulations. So I 
am not sure we are seeing any commensurate enhancements in 
security by the addition of more surface transportation 
inspectors.
    Mr. Rogers. I will ask you: Yes or no? Do you think it has 
been worth doubling the workforce from a security standpoint?
    Mr. Elliot. I have not seen that, no.
    Mr. Rogers. Mr. Byrd, yes or no? I have got 24 seconds.
    Mr. Byrd. No.
    Mr. Rogers. Chief O'Connor.
    Chief O'Connor. No. I would rather see an increase in 
canines and an increase in public and employee training.
    Mr. Rogers. Mr. Blankenship.
    Mr. Blankenship. The only increase we are really seeing is 
in the baseline inspections that have occurred.
    Mr. Rogers. Mr. Morris.
    Mr. Morris. No, sir, I have not.
    Mr. Rogers. We have been joined by my friend and colleague 
from Texas who has come from the Intelligence Committee, where 
I am sure she has made the world safer. We are glad to have her 
here now. I recognize her for any opening statements she may 
have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and to 
the witnesses for their testimony. The Chairman has been 
gracious. Thank you, Members--Mr. Davis, Mr. Turner, and Mr. 
Cravaack--for your courtesies. We are also in an Immigration 
Subcommittee so I thank you very much.
    This is a subject that is enormously close to my heart and 
I thank all of you for your participation in this valuable 
hearing that will provide and is providing insights on critical 
transportation issues.
    As the Ranking Member of the Transportation Security 
Subcommittee, I have continuously supported the allocation of 
adequate resources aimed at enhancing the efficiency, safety, 
and security of our rail and mass transit systems. There is no 
doubt--and I know that you, as gentlemen on the front lines, 
that when we think of a target, the target that has been most 
attractive to whatever franchised terrorist group you can speak 
of, it is a transportation mode. We will fool ourselves if we 
don't recognize that the surface transportation is clearly in 
the eye of the storm.
    This morning's news reported that buses transport more 
people or at least the same amount of people as the aviation 
industry. How many Americans would know that? Which is why I 
offered an amendment to the surface transportation security 
measure recently considered by the full committee. My amendment 
would authorize $400 million for the Transportation Security 
Grant Program in fiscal year 2012 and fiscal year 2013.
    I want you to know, the good news is the amendment was 
unanimously supported by this committee. I am pleased that 
Members on both sides of the aisle recognize the need to 
authorize these funds. In the near future the House will 
consider the fiscal year 2013 Department of Homeland Security 
appropriations bill, and I will respectfully request that my 
colleagues continue their strong commitment to transportation 
security grant funding when the appropriations measure is on 
the floor of the House.
    If you are happily going off to the casinos in Louisiana 
and parts of Texas, or if you are having to get to grandma's 
house, you are using a mode of transportation that could in 
essence be a target.
    I cannot overstate the importance of funding for grants 
that allow State and local jurisdictions to secure our Nation's 
transportation infrastructure. According to the National 
Counterterrorism Center, since 2004 over 1,000 terrorist 
attacks were waged worldwide against mass transit and passenger 
rail targets, resulting in over 2,000 deaths and over 9,000 
injuries. In fact, we were one of the first Congressional 
delegations to visit Mumbai after the series of attacks there 
and to visit the station where these heinous attacks occurred--
Madrid, London, Mumbai, and Moscow. We have been fortunate that 
we have not put on that list one of our sites, even though of 
course there was a plot to attack the New York City subway 
system in 2009, and everyone remembers the Times Square alleged 
bomber that was trying to disrupt Times Square a, if you will, 
center-point for rail subway lines crossing in that area.
    Given the open nature of our mass transportation system and 
the millions of people who use our subways, buses, and highways 
each day, the effort to assure adequate funding for the 
transportation security grants should be a high priority for 
this Congress. Since the demise of Osama bin Laden, we must be 
diligent.
    Last year I introduced the Surface Transportation and Mass 
Transit Security Act of 2011. If enacted, this bill would 
ensure that TSA provides the kind of attention and resources 
necessary to effectively operate surface and mass transit. The 
bill authorized the hiring of additional surface inspectors to 
validate security programs that impact our surface and mass 
transit.
    Let me indicate how much I think this hearing is crucial, 
and I will caution that we must not throw the baby out with the 
bath water. It is important that we work with TSA to make 
changes. It is important that TSA hires additional 
transportation security inspectors, being the first step. 
However, the agency must also ensure that regulations impacting 
training of front-line workers across surface and mass transit 
are issued and shared for public comment. Without this 
overreaching framework, single acts and individual programs 
will likely have little impact.
    However, this overreaching framework must include the kind 
of mechanism my bill, such as a protocol to strengthen 
stakeholder outreach revisions to the public transportation 
security assistance grants program in recognition of the 
importance of increased resources for canine teams. I am 
looking forward for these efforts to go forward in a fast and 
expeditious way.
    I also look forward to the testimony that has come about to 
the First Observer program, formerly known as Highway Watch. I 
believe that this hearing, Mr. Chairman, answers a number of 
questions that the Congress does maintain its responsibilities 
of oversight and vigilance, because it is important to secure 
the homeland in all aspects.
    With that, I yield back on my statement.
    Mr. Rogers. Thank you.
    Would the Ranking Member like to go ahead and take her 5 
minutes of questions----
    Ms. Jackson Lee. I would like to do so, and try to 
abbreviate my questions as well.
    Mr. Rogers. Okay. The Chairman recognizes the Ranking 
Member for 5 minutes.
    Ms. Jackson Lee. Thank you very much.
    First of all, I have taken it to heart, visiting various 
sites and watching the work that is done. Let me give you just 
this one question: Unlike at airports where security is 
completely Federalized, the local transit and law enforcement 
agencies bear the brunt of implementing effective security 
programs for surface transportation systems. As we discuss 
moving forward with TSA's program, I would like to know what 
your major resource and operational challenges are and how TSA 
can use inspectors with proper surface experience and expertise 
to help you meet those challenges. I would like to start with 
Chief O'Connor.
    Chief O'Connor. Thank you, Ranking Member.
    Ms. Jackson Lee. As I interrupt you, let me say that you 
have one of the toughest tasks. Might you just put on the 
record, if I missed it, what you think your traveling census is 
up and down that East Coast corridor? Chief.
    Chief O'Connor. Thank you. I appreciate those comments. My 
task is made easier by working with some of your colleagues in 
Texas, with Chief Rodriguez and former Chief Lambert. I visited 
Houston just last month to consult with them.
    In terms of the usefulness of the inspectors, I testified 
earlier that our efforts are geared towards prevention, 
partnership, and participation. I think that is where the TSA 
needs to go. Focus less on repeating vulnerability assessments 
and regulations, which do not add to security but develop a 
partnership with the agencies that help in their prevention 
efforts, help in partnering with local communities, and help in 
training employees and doing public outreach.
    I think the whole program needs to be looked at from top to 
bottom to see if that is where their efforts are going.
    Ms. Jackson Lee. I thank you. I am going to yield back and 
come back to get these questions answered at the next go-
around. Thank you, Mr. Chairman.
    Mr. Rogers. The Chairman recognizes Mr. Turner for 5 
minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    I am interested, Mr. Elliott, in the inspectors. There are 
now 400 rail inspectors; did I hear that right?
    Mr. Elliot. Well, there are 400 surface transportation----
    Mr. Turner. What is their mandate?
    Mr. Elliot. Congressman, with regards to freight rail 
security, there is one TSA regulation, the one that deals with 
the secure and positive hand-off of toxic inhalation hazards. 
So their focus has been wholly to go out to our rail facilities 
and basically focus on how well that regulation is being 
adhered to.
    Really, as I had mentioned before in my testimony, we value 
a lot of the good positive relationship with TSA. But what we 
are typically seeing now--we do have concerns about the level 
of knowledge and training that the surface transportation 
inspectors are getting, especially since their growth was so 
fast. But we are basically seeing multiple inspectors coming 
out to basically observe the same function in a number of 
limited locations. So, again, we recognize that TSA brings some 
great value in the partnerships that we have with them, but I 
am not sure that we are seeing the total value of this program.
    Mr. Turner. Isn't there already a rather profound 
infrastructure for safe handling of coupling and uncoupling of 
cars and toxic materials, and, in other agencies, 
transportation? These are homeland security inspectors.
    Mr. Elliot. That is correct. Predominantly freight rail 
safety and security regulations come under the auspices of the 
Federal Railroad Administration. We traditionally see a number 
of FRA inspectors who are out on the rail property looking at 
compliance with the regulations that they oversee. But the one 
regulation currently that TSA has jurisdiction over is this 
secure and positive hand-off of toxic inhalation hazards that 
basically requires that there is a physical hand-off of toxic 
inhalation hazards products such as sulfur dioxide, chlorine, 
and hydrous ammonia, make sure that there is that physical 
security.
    We recognize that there is a significant difference in the 
security threat to freight transportation versus the security 
that needs to be focused on with the traveling public. Again, 
we focused quite significantly on a number of security issues. 
We are just not quite so sure that the focus that TSA has put 
on this one particular interest is really----
    Mr. Turner. Do you see this as a redundancy?
    Mr. Elliot. There are two things. One, I do see it as 
somewhat of a redundancy with what the Federal Railroad 
Administration focuses on in its security and safety 
initiatives. Quite honestly, I will tell you that I think we 
work very hard internally to ensure full compliance with the 
regulation.
    Again in my testimony, we get lauded on one hand by an 
inspector who watches this physical hand-off and indicates that 
we are doing it perfectly, then only to take exception to the 
fact that we may have a misspelled name or something maybe 
out--so the indication to us, then, has to be that we are 
meeting the intention of the regulation, but the inspectors may 
have to find something so they are turning to some very minor 
administrative issues instead.
    Mr. Turner. Thank you. Another question for Chief O'Connor. 
For railroad stations, et cetera, the only effective detectors 
are the noses of canines; am I correct? Do we have enough of 
them?
    Chief O'Connor. I don't think there would be a chief in the 
country who tells you he has enough resources. But certainly in 
terms of canines, we need to expand that. They are one of the 
most versatile tools and most skilled tools out there. I think 
they should be expanded not only in surface transportation but 
in----
    Mr. Turner. And they work cheap, too.
    Chief O'Connor. Well, they are very appreciative of their 
handlers and a good program creates a good team. But I think 
they should be widely used throughout the whole transportation 
industry.
    Mr. Turner. Thank you.
    I yield back, Mr. Chairman.
    Mr. Rogers. Now you know why I like Chief O'Connor.
    Mr. Richmond is recognized for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    For a person who represents a district that has just about 
everybody at the table with a large footprint in the New 
Orleans, Louisiana, and you can take Amtrak and Greyhound, 
which hub is right next to the New Orleans Superdome and the 
New Orleans arena, or you can look at CSX and all of our major 
rail lines that come right into the Port of New Orleans and 
some of our chemical plants and not to mention the truckers. I 
guess the disturbing part is it appears as though you all take 
your jobs very, very seriously, and you all have 
recommendations from being the boots on the ground, so to 
speak, the front line of defense, and it appears as though that 
the working relationship with TSA in terms of suggestions on 
how to make things actually work better and safer, that there 
is some gap in terms of feedback or input or maybe the sense 
that they don't respond or take your suggestions seriously.
    So I guess my first question would just be a very general 
question, and you can submit further answers in writing, but I 
would be curious to know when you all make recommendations, 
such as less focus on operational and not get stuck on 
regulations that have no direct connection to safety, what kind 
of feedback do you get? Do you have any suggestions for us?
    Specifically, this may take writing, those regulations that 
are redundant, that are misguided in terms of not a very direct 
connection to safety, I would like to know about those because 
at the end of the day, I think that New Orleans is a very 
sensitive or delicate city when it comes to transportation 
security, so we want to make sure we get it right.
    So, Chief O'Connor, if we can start with you and just go 
down the line, that would be very beneficial.
    Chief O'Connor. Let me start by saying in other areas 
working with the TSA, our partnership has been very good. When 
we first started out with VIPRs, we had a lot of problems, but 
then we reached agreement to work on operational plans together 
and where we both signed off on the purpose of VIPRs and how 
they would be deployed. But for some reason, that hasn't 
happened in the inspector program.
    In the canine program, we work hand in glove with them, and 
in fact, they come to us to learn about the canine program and 
have made efforts to expand it based upon our experience.
    We have raised these issues with the Administrator Pistole. 
He is aware of them. He has promised that he would look into 
some of these issues, but we are still waiting for the results 
of those meetings.
    Mr. Richmond. So just to be clear, for you, it is really a 
problem with the inspector program?
    Chief O'Connor. That is correct.
    Mr. Richmond. Okay.
    Mr. Elliot. Congressman, I would underscore what Chief 
O'Connor says, in that in our dealings with TSA, I would rate 
our relationship with the freight rail branch, the headquarters 
group that basically focuses on regulation and policy, as being 
very good. We have had good interaction with that group since 
its inception, and traditionally, they will listen to our 
concerns. Most of the folks within that group actually come 
from rail backgrounds, which we find very helpful. We don't 
always agree with some of the regulations that they bring 
forward. What we understand, that they have a task in trying to 
make this country in rail transportation safer, and we can 
appreciate that task.
    We also have what we think is a very good relationship with 
our regional safety coordinator, whose job is to kind of 
understand the concerns and issues that we have at CSX.
    But finally, I think our relationship with the surface 
transportation inspectors, given that they report up to a 
director who focuses more on aviation security, we find that 
that communication and coordination probably is lowest of the 
three groups that we deal with regularly at the TSA.
    Mr. Richmond. I may have missed it, but any suggestion on 
who should be at the top of that command chain?
    Mr. Elliot. I think that perhaps, in my point of view, it 
is not who should be at the top, but they should all be 
together.
    Mr. Richmond. With the focus on surface transportation as 
opposed to aviation, at least for this group.
    Mr. Elliot. Correct, yeah, I would tell you that a rail 
yard and a freight train is entirely different from an airport 
and air passenger security.
    Mr. Richmond. Mr. Byrd.
    Mr. Byrd. Thank you, Congressman. I would agree with my 
colleagues to the right that the relationship between the 
trucking industry and TSA is good on one hand and, on the other 
hand, can be improved. I think that is, in basic terms, is a 
partnership and a trusted partnership and one that needs to be 
expanded on. When we--the trucking industry has been dealing 
with what is known as the Transportation Work Identification 
Card for approximately 5 years. That program has been an 
economic burden to our industry and returned very little 
results in terms of antiterrorism or securing our seaports and 
other venues.
    Its purpose was to be a single biometric credential that 
the trucking industry could use to gain access into sensitive 
and secure areas, and it has yet to fulfill that requirement. 
We still don't have readers in the field, and yet we are 
looking upon a situation where these cards that were first 
issued are going to expire shortly, and we are going to have to 
go through that economic burden again, and we still don't have 
readers. So that is a problem for us.
    In terms of the VIPR situation that I made comment to in 
the testimony, in Georgia and Tennessee, as a taxpayer, is it a 
good investment to have a second level of inspectors go out 
just simply to hand out material to our commercial drivers 
about how they can communicate what they see when we already 
have effective programs both in our private businesses and as a 
industry at large?
    So I think that the key from the trucking industry would be 
to expand on the trusted partnership program, work together, 
communicate together, and develop that.
    Mr. Rogers. The gentleman's time has expired.
    I now go to the gentleman from Minnesota, Mr. Cravaack.
    We will have another round of questions if you want to pick 
up, Mr. Richmond, at that point.
    Mr. Richmond. That is fine. Thank you.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you all for coming here today. I appreciate it.
    If I could, please, Mr. Elliott, I just have got a couple 
questions for you in regards to some rail issues. In your 
experience, do the TSA inspectors that you have dealt with, are 
they more focused on securing the environment or technical 
compliance?
    Mr. Elliot. Technical compliance.
    Mr. Cravaack. So they are dotting the i's, crossing the 
t's?
    Mr. Elliot. That is correct.
    Mr. Cravaack. Not looking at security--the environmental 
security, then. When I say ``environmental,'' I mean 
conditions.
    Mr. Elliot. Correct.
    Mr. Cravaack. Do you think the current structure in which 
TSA inspectors are reporting to Federal security directors in 
the field is working well?
    Mr. Elliot. I believe there is probably too much 
inconsistency with the current TSA organizational structure 
that has a group of individuals who are responsible for coming 
out and providing security inspection of the freight rail yards 
not in any way shape or form connected with the headquarters 
organization that really is responsible for formulating policy 
and regulations, and I think what happens is that then we see 
this tremendous inconsistency with the application of the 
regulations and interpretations.
    We have spent an inordinate amount of time and resources 
dealing with very minor and trivial administrative issues. Fact 
in point, approximately 2 weeks ago, we received notification 
from our regional security liaison about what they considered 
to be a serious security breach, violation breach in a railyard 
in Jacksonville, and they asked for a meeting. So I brought my 
security team in, myself, the representatives from the TSA 
surface inspections side came in. They laid out the issue as 
they saw it and only to find out that it was a 
misinterpretation of their own regulation and that the regional 
or, excuse me, the regional security liaison actually then had 
to call back after he called the headquarters group, the 
freight rail group in Washington, to get the interpretation to 
find out that what to them was a significant violation of the 
regulation wasn't a violation at all.
    We spent a lot of time and effort preparing for that 
meeting trying to understand what we may have done wrong, only 
to find out that it was an inappropriate or an inaccurate 
application of the regulation by the inspectors who are 
supposed to know those things.
    Mr. Cravaack. You are touching on a point I want to try to 
hammer home. When railroads speak of the regional security 
inspectors, the RSIs with concerns about surface transportation 
security inspectors, what actions are RSIs available to 
actually take?
    Mr. Elliot. Probably very, very little, if any, actions 
directly, but I do give our regional security inspector good 
marks for his consistent communications with us in trying to 
act as an intermediary to solve some of our concerns. But you 
are correct. He has very little capability to solve any 
problems independently.
    Mr. Cravaack. That is pretty much because of the chain of 
command, as I understand it. Now the problem is STSIs do not 
report to the TSA freight rail branch do they?
    Mr. Elliot. No.
    Mr. Cravaack. Or to the TSA headquarters.
    Mr. Elliot. That is correct.
    Mr. Cravaack. Rather the STSIs report to the Federal 
security directors, is that correct?
    Mr. Elliot. Yes.
    Mr. Cravaack. In the field, whose primary focus--isn't 
their primary focus on aviation?
    Mr. Elliot. It is.
    Mr. Cravaack. That is what I thought. So now, although the 
TSA appointed the regional security inspectors to be liaisons 
to the railroad, on surface transportation issues, the RSIs are 
not in the chain of command of the STSIs, is that correct?
    Mr. Elliot. That is correct.
    Mr. Cravaack. Or the TSA freight rail branch?
    Mr. Elliot. Yes.
    Mr. Cravaack. So, therefore, they lack really any authority 
to resolve any issues or the ability to provide meaningful 
subject matter guidance on freight rail security issues, is 
that correct?
    Mr. Elliot. Yes.
    Mr. Cravaack. So it is a pretty messed-up system, would you 
agree?
    Mr. Elliot. It could be better.
    Mr. Cravaack. You should run for politics. Okay.
    I just wanted to show the inadequacy of the system and how 
it is working, and you brought up the point--I mean, your 
example was right on, on just how ineffective and inefficient 
the system is when there is an issue, and you have to go to 
great lengths to explain yourself to somebody who may not even 
understand what you are talking about.
    So, thank you very much, sir, I appreciate your time, and I 
will yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes my friend and colleague from 
Illinois, Mr. Davis, for any questions he may have.
    Mr. Davis. Thank you very much, Mr. Chairman, and let me 
thank the witnesses. Why don't I begin and ask each one of you 
if you would respond? I will begin with Mr. Morris.
    The Department has been championing its ``See Something, 
Say Something'' campaign for the last couple of years. How does 
your membership report or collect data on the reporting 
incidents?
    Mr. Morris. Thanks, Congressman, the ``See Something, Say 
Something'' is basically a slogan, an ad campaign. We are 
involved in a First Observer Program. The First Observer 
Program has a call center. We have over 168,000 program 
members. Last year we received over, since the inception, we 
received somewhere in the area of 4,000 calls; 400 of those 
calls have been referred for further action to the 
Transportation Security Operations Center for investigation. So 
the ``See Something, Say Something'' campaign is basically an 
ad campaign. The First Observer has training involved with it 
and it tells people what to look for.
    Mr. Davis. Mr. Blankenship.
    Mr. Blankenship. We train our entire workforce on to report 
any instances, and we have a 24/7 operation center that is 
manned to take those calls. Based on the level of incidents, 
there is a call down tree or a notification tree so the more 
serious instances get raised up very quickly. It is 
instantaneous, and it is distributed through the entire 
corporation as appropriate.
    Mr. Davis. Mr. Byrd.
    Mr. Byrd. Congressman, thank you for the question, and I 
would just simply say that the ``See Something, Say Something'' 
program has been effective in the trucking industry. We have 
two prime examples to share. In my testimony, written testimony 
I submitted, you will note that we make mention of an incident 
that occurred by one of our carrier members where a very alert 
employee of a trucking company saw suspicious chemicals coming 
through and going to a suspicious residence, made comment of 
that, took it up the chain of command, as he had been trained 
internally and through our association to do. The end result of 
that ``See Something, Say Something'' scenario was a terrorist 
attempt was frauded and apprehended.
    Another such incident, the American Trucking Association 
ran the program Highway Watch, and I am sure all of us here 
remember the Washington sniper, it was because of that program 
and the effectiveness of communicating a need of the community 
to see something and say something that that individual was 
apprehended by the recognition of seeing something and saying 
something by a truck driver.
    Mr. Davis. Mr. Elliott.
    Mr. Elliot. Congressman, in the freight rail industry, and 
specifically CSX, we have for a number of years a similar 
program that we call ``Recognize, Record, and Report,'' which 
is basically training our employees to identify any suspicious 
or unusual activities even to the equivalent of our 9/11 
location, our public safety coordination center, or if it is a 
bona fide concern, to the local police at 9/11. We will gather 
that information, and we typically then will report that 
further up to our trade association, the Association of 
American Railroads, through their Rail Alert Network, and they 
will then move it forward to other Federal security agencies. 
Oftentimes, too, we will make individual contacts to TSA at 
their operation center out in Herndon, and even perhaps to the 
Federal DOT security center here in Washington.
    Mr. Davis. Chief O'Connor.
    Chief O'Connor. Yes, sir. We have trained our 19,000 
employees in the ``See Something, Say Something'' program as 
well as the general public. We have developed a program called 
PASS, or Partners for Amtrak Security and Safety, and any and 
all reports come into our National communication center. They 
are investigated at the local level, and those that have a 
substantive are then passed on to our representatives at the 
Joint Terrorism Task Force. So it has been a very successful 
program for us.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    I want to revisit something. I think you can tell from my 
opening statement that I am of the impression that this 
inspector program is too heavy in personnel and based on its 
earlier history was able to get by pretty efficiently and 
effectively with about 100 inspectors; certainly no more than 
200 would be necessary based on what I have heard prior to this 
hearing from and from you all.
    So I would like to start with Mr. Morris. Is that your 
view? Would you agree or disagree with that observation, yes or 
no? Or you can plead the fifth if you are scared.
    Mr. Morris. I agree with that, sir.
    Mr. Rogers. Mr. Blankenship.
    Mr. Blankenship. I agree with that observation.
    Mr. Rogers. Mr. Byrd.
    Mr. Byrd. I agree with the observation, sir.
    Mr. Rogers. Mr. Elliott.
    Mr. Elliot. Agree.
    Mr. Rogers. Chief.
    Chief O'Connor. I will give you a little more qualified 
answer. The numbers don't----
    Mr. Rogers. I thought everybody was going to be just a 
badge of courage, and then he came up.
    Chief O'Connor. The numbers, I don't turn away any help. 
But it has got to be the right kind of help. If they are not 
doing the right thing, then increasing the numbers doesn't 
help. So whatever the number turns out to be, it needs to do 
the right thing.
    Mr. Rogers. You just basically concurred with the other 
four gentlemen when you say you don't need that many people. I 
am getting to this: If it were up to you all and we could 
reallocate the money being spent on 300 of those 400 inspectors 
and put them into a grant program--now several of you have 
talked about grants that pay for canine assets. It could be 
some other security asset. Would you think that would be a 
higher and better use of the money?
    Start with Mr. Morris.
    Mr. Morris. Yes, sir, we would wholeheartedly support that.
    Mr. Rogers. Mr. Blankenship.
    Mr. Blankenship. Yes, in my statement, I refer to the inner 
city bus security grant and how effective that program has been 
so we would support that.
    Mr. Rogers. Mr. Byrd.
    Mr. Byrd. We would agree.
    Mr. Rogers. Mr. Elliott.
    Mr. Elliot. Congressman, I think we would like to see more 
risk-based approaches that promote technology-based security 
solutions and not just drawing manpower that may not be wholly 
effective.
    Mr. Rogers. Would the grants accomplish that?
    Mr. Elliot. Yes, it could.
    Mr. Rogers. Chief.
    Chief O'Connor. I'm a proponent of the expansion of canine 
without qualification.
    Mr. Rogers. Great. I am glad you all helped me get that on 
the record because I am going to try to bring that amendment 
when we proceed to the floor with this. I do think that this 
money could be used better in these various grant programs.
    Mr. Blankenship, you mentioned earlier, and this will be my 
last question, that TSA wouldn't work with you on trying to put 
canine assets in your systems at very modest expense. What was 
the problem?
    Mr. Blankenship. They just couldn't coordinate the 
activities. In most cases, downtown locations were a couple 
blocks, three or four blocks away, so why not come by the 
Greyhound terminal, have canine unit do a quick run through the 
terminal as a preventative, and we weren't able to break that 
silo down. We asked to have that reconsidered. We think it 
could be valuable and at very little incremental cost.
    Mr. Rogers. You are telling the right person. I may be able 
to help you with that.
    Mr. Blankenship. Thank you very much.
    Mr. Rogers. Mr. Davis, do you have any more questions?
    Mr. Davis. One more.
    Thank you very much, Mr. Chairman.
    Mr. O'Connor, you indicate that you would not turn away the 
extra support or help. How can TSA do a better job or what kind 
of support do you need or could you use?
    Chief O'Connor. They have been very helpful in doing 
passenger baggage screening, helping us multiply our forces. 
They have been very helpful in the canine aspects. Those 
efforts that actually do something in the field to enhance 
boots on the ground is what I am looking for.
    Mr. Davis. Also, and each one of you if you could just 
respond quickly, in the June 2008 DHS OIG report entitled 
``TSA's Administration and Coordination of Mass Transit 
Security Programs,'' several concerns were raised by transit 
security officials indicating that TSA's risk management did 
not account for certain needs of cities and their transit 
systems.
    In developing the fiscal year 2012 Transit Security Grant 
Program priorities and evaluated submissions, how do you think 
DHS can improve on its transparency in the evaluation and 
selection of transit security projects?
    Chief, why don't we just start with you?
    Chief O'Connor. Well, it is a pretty long question, and I 
will say this, that with limited resources, again, those 
efforts that enhance front-line operational efforts are the 
ones that, in my opinion, are best invested in, those that 
encourage partnerships. For instance, we worked very closely 
recently with the Secret Service and the City of Chicago police 
department during the NATO conference, and in fact, our canines 
were used by the Secret Service in helping protect that whole 
event. So those efforts that help in the development of 
partnerships, that help the front-line efforts are what I 
support.
    Mr. Davis. If you read the Chicago papers, you will note 
that everybody felt that the entire team did an excellent job, 
an outstanding job, and we command you for that.
    Mr. Elliott.
    Mr. Elliot. Congressman Davis, at first blush, most folks 
may not think that a freight rail transportation network has 
much to do with passenger rail security, but that is really not 
the case. At CSX, we have over 8 million rail miles a year of 
passenger and commuter operations on our network. We are very, 
very fortunate to have great working relationships with my 
colleagues at Amtrak and some of the other passenger 
transportation networks.
    One of the things that we do through our police department, 
and yes we use canine as well--I am happy to announce we are 
assigning a new canine unit right here to a community-based 
policing effort that we have in Washington--but one of the 
things we do recognizing that, and we do have the traveling 
public on CSX rails that use our police department to basically 
go out and try to train other law enforcement agencies who are 
going to be the first to respond to a rail-related terrorist 
incident. But again, we understand the importance of the 
transit security side, and we try to do our best to help our 
colleagues to deal with it on a more frequent basis.
    Mr. Davis. Mr. Byrd.
    Mr. Byrd. Obviously, we are not involved in the mass 
transit of people in that, but just to respond in general as a 
citizen, again, I think it just highlights the fact--and from 
what my colleague Chief O'Connor mentioned, communication, 
working together, partnerships are invaluable to making a 
successful program work and that is the only comment I would 
have.
    Mr. Davis. Mr. Blankenship.
    Mr. Blankenship. I think my comment is more geared toward 
Greyhound lines is a private bus company, and most of the 
security cost is at our burden. Congress did include the inner 
city bus security grant in fiscal year 2012, but DHS chose not 
to fund it, and we would like to see that revisited. We think 
that is a big help with very little dollars and it goes a long 
way to screening our customers.
    Mr. Davis. Mr. Morris.
    Mr. Morris. Yes, sir, as a representative for drivers, we 
applaud any efforts in any surface transportation security 
realm. Transit, wherever, our drivers count on the fact that 
they need to have that bridge there, or they need to have that 
road there; if their wheels aren't rolling, they are not making 
any money.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Rogers. The Chairman recognizes Mr. Turner for any 
additional questions if you have any.
    Mr. Turner. No questions.
    Mr. Rogers. I will close with this. It is an invitation. 
Next week I will have Administrator Pistole before our 
committee. If there is anything you would like me to ask him, 
tee it up.
    Mr. Morris.
    Mr. Morris. Yes, sir, I would like to ask him if any future 
grants are going to be out there, more homeland security 
efforts, surface transportation, if he is going to dedicate 
more money to surface transportation.
    Mr. Rogers. Excellent. I will do that.
    Mr. Blankenship.
    Mr. Blankenship. I would have the same response, an inner 
city bus grant program, getting that revitalized with some 
other type of grant; also better coordination on the VIPR teams 
when they do come into the Greyhound terminals, coordination on 
time of day and so forth. We don't need them coming in when we 
don't have passengers.
    Mr. Rogers. Excellent. I will do that.
    Mr. Byrd.
    Mr. Byrd. The trucking industry would like to know when our 
TWIC readers are going to be available to us.
    Mr. Rogers. I will get you an answer.
    Mr. Elliott.
    Mr. Elliot. Mr. Chairman, I think it has to do with better 
coordination, perhaps consolidation of the organizational 
construct of TSA, especially as it focuses on freight rail 
security. They shouldn't be separate entities. They should all 
be one single-focused effort that focuses on surface 
transportation.
    Mr. Rogers. Why don't you do this for me? Why don't you 
fashion the question you want tendered in writing, and I will 
read it verbatim for you?
    Chief O'Connor, short-timer.
    Chief O'Connor. Short-timer. I would ask the administrator 
if he would take a look at within the organization on them, the 
surface security inspectors, looking to partner with industry 
as they do in other areas of TSA, take a hard look at that.
    Mr. Rogers. Great. For those folks who didn't get the 
short-timer remark, Chief O'Connor is about to retire, and I am 
proud for him, a little jealous, but he has been a great asset 
to come before us before, and I appreciate it. I wish you well 
in your retirement and hope we see you around here in more 
relaxed attire in the future.
    Chief O'Connor. Thank you, Mr. Chairman.
    Mr. Davis. Before you close, can I just ask, Mr. Morris----
    Mr. Rogers. Certainly.
    Mr. Davis [continuing]. A question. You discussed the First 
Observer Program as an important layer of security. Could you 
amplify that a little bit?
    Mr. Morris. The First Observer Program is a trainer 
program. It puts together people who know their realm, know 
their driving or whatever realm it is, gets them together, we 
put training modules together geared toward their expertise, 
their professional area of expertise. They in turn call us when 
they see something that is out of the ordinary; it is either 
suspicious or out of the ordinary, calls that you generally 
would probably not get in the past, or they would call 9/11, 
and those calls would go to the wayside. Those calls are then 
taken to or vetted and analyzed by a transportation security 
professional in the Transportation Security Operational Center, 
and there are actionable items taken as a result of those calls 
and analysis.
    Mr. Davis. You think there is perhaps any additional 
training opportunities that exist or if there were training 
opportunities, if this would be effective to the extent of 
really being useful in terms of people learning perhaps more 
effective techniques and approaches and what to look for and 
how to look?
    Mr. Morris. Yes, sir, Congressman. The original program was 
supposed to be just for trucking security. It has evolved into 
12 modules now, different venues due to the gaps that people 
saw. TSA came to us and said: Hey, can you put together more 
modules? We did it, no extra money or anything like that. We 
just did it because we thought it was the right thing to do, 
and we did it. If there is additional money or additional 
training, we could put everybody on surface transportation 
under the umbrella. The problem is that the funding is scant at 
this time.
    Mr. Davis. Well, thank you very much.
    I thank you, Mr. Chairman. I see that the Ranking Member 
has returned, and I am pretty certain that I probably didn't 
ask half the questions that she might have asked, but I would 
yield.
    Mr. Rogers. The Chairman recognizes the Ranking Member for 
any questions she may have.
    Ms. Jackson Lee. Let me thank all of the witnesses.
    To give me some reprieve and excuse, I was dealing with the 
intelligence bill on the floor of the House, and I know that 
gentlemen rely a lot on intelligence, and we need to coordinate 
together.
    Let me, because a lot of you are from the areas in which we 
are attempting to work with TSA, I would like to just ask the 
question, Chief O'Connor and Mr. Morris, the importance of 
making sure that we continue the transportation security 
grants. As I indicated, my amendment put in $400 million, and 
we will always hear from some that resources don't always 
answer the question. But I have been on the ground. I know the 
vastness of the work that law enforcement is asked to cover, 
particularly the local structure and infrastructure.
    Chief O'Connor, I have, as many other Americans, ridden on 
Amtrak. Amtrak, I must say, I think relatively, without 
documentation, has a safety track record that is more than 
respectable based upon how old it is. Amtrak, if you ride it, 
rides through neighborhoods and urban centers. It therefore, 
can be enormously attractive to somebody who wants to do us 
harm. So both of you could answer what those resources, 
particularly this $400 million, and keeping those funding 
cycles open and flowing to be constructively, efficiently, 
effectively, and with the taxpayer's dollars in mind, how this 
continues to help secure the homeland.
    Chief O'Connor.
    Chief O'Connor. Yes, Ranking Member Jackson Lee, the Amtrak 
operates in more than 500 communities in 46 States, and we 
interact with about a dozen commuter agencies across the 
country, so it is not just protecting America's railroad, but 
it is also protecting communities in major urban areas and 
major commuter centers around the country.
    The transit security grants go a long way toward helping us 
in our canine programs, toward helping us in gathering the 
proper intelligence, toward buying down vulnerability and 
lowering the risk.
    It is a daunting task just to protect the public on a day-
to-day basis. When you overlay that with the threat of 
terrorism, the assistance that the Federal Government gives to 
us and the transit agencies across the country is vital, and 
there would be serious breaches and increases in vulnerability 
without it.
    Ms. Jackson Lee. Mr. Morris.
    Mr. Morris. Yes, ma'am, Ranking Member, the First Observer 
Program, as you are aware, is on a no-cost extension since 
January 1, 2012. Over 160 program members--that is what we 
have--these are volunteers and a lot of different venues, 
ports, school bus, trucking, there are 12 different venues. In 
your district alone, we have 2,000 school bus and truck 
drivers. These are volunteers who came there for the training 
to help out in the homeland security mission.
    If TSA walks away from this, it sends a message to them 
saying that they don't care about surface transportation. That 
is the only thing I can say.
    Ms. Jackson Lee. Let's get Mr. Elliott.
    Let me focus the question in quite a different way, we have 
the massive freight system and part of the work that you do, 
the major work that you do. I think there is no question that 
there are hazardous materials that are being transported, makes 
for a vulnerability for those who might wish to do us harm, how 
important it is to have a partnership with the Federal 
Government on securing the homeland, particularly with 
inspectors dealing with surface transportation?
    Mr. Elliot. As I had mentioned earlier, we recognize that 
there are many valuable programs between TSA and the freight 
rail industry. With regards to the surface transportation 
inspectors, we have some concerns that we wish they had better 
knowledge and understanding of the freight rail system. Freight 
railroads can be inherently unsafe places, and we prefer that 
the folks that are entrusted by the Government to basically 
come out and provide those inspections have received the kind 
of commensurate training and understanding of railroad.
    We would also like to see that to be, as wholly effective 
as the current group of surface transportation inspectors can 
be, that, again, that there is better coordination between the 
entities that we deal with in TSA. The surface transportation 
inspectors report up through one entity. We also assigned a 
regional security inspector as a liaison to try and help us 
with issues that we have. Then, of course, we deal with the 
headquarters, freight rail branch, that deals a lot with 
regulations and policy, and there is no consistency between 
those three.
    We would really ask that TSA kind-of does a better job of 
bringing those groups together to provide better service to us 
on the freight rail security side.
    Ms. Jackson Lee. So your comments are not the lack of 
recognition of the value of inspectors, what your instruction 
and insight is that we need to improve our training and 
outreach so that we have inspectors who are sufficiently 
trained for each discipline, each industry, am I hearing you 
correctly? If I might, any coordination within TSA?
    Mr. Elliot. Ranking Member Jackson Lee, I think currently, 
and I have to say what I observe and that is that we don't see 
the current cadre of surface transportation inspectors that are 
focusing on freight rail transportation are as effective as 
they possibly could be.
    We are dependent upon our network of employees, our police 
department, our security professionals to provide most of the 
security to our freight rail network, and I think some of this 
lack of coordination between the entities that focus on freight 
rail security that perhaps makes the current group not nearly 
as effective as probably they should be.
    Ms. Jackson Lee. What I would say as I close, Mr. Chairman, 
is that there is no doubt that transportation security 
inspectors are a valuable asset. I think if I look at the 
railroad industry for a long time, you have been under the U.S. 
Department of Transportation pre-9/11. Now there is overlapping 
jurisdiction, and what I hear you crying out for is what I 
think is a bipartisan cry at least it is mine; no, I cannot 
yield to the Department of Transportation Federal Railroad 
Agency for security, but what I will listen to and I think is 
important is the idea that we can improve training, we can 
improve coordination, and we can answer your question or your 
concern that we need to have focus on your industry in the 
right way.
    So I conclude by thanking Chief O'Connor for his service. I 
understand he is retiring, and I congratulate him for the 
service he has given to this Nation.
    I yield back.
    Mr. Turner [presiding]. I thank the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the committee may have some additional questions for 
the witnesses, and you will be asked to respond to these in 
writing. The hearing record will be open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 4:00 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
